<html>
<title> - IS THE REID-KENNEDY BILL A REPEAT OF THE FAILED AMNESTY OF 1986?</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                 IS THE REID-KENNEDY BILL A REPEAT OF 
                      THE FAILED AMNESTY OF 1986?

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 1, 2006

                               __________

                           Serial No. 109-142

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
29-745                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
DANIEL E. LUNGREN, California        ZOE LOFGREN, California
WILLIAM L. JENKINS, Tennessee        SHEILA JACKSON LEE, Texas
CHRIS CANNON, Utah                   MAXINE WATERS, California
SPENCER BACHUS, Alabama              MARTIN T. MEEHAN, Massachusetts
BOB INGLIS, South Carolina           WILLIAM D. DELAHUNT, Massachusetts
JOHN N. HOSTETTLER, Indiana          ROBERT WEXLER, Florida
MARK GREEN, Wisconsin                ANTHONY D. WEINER, New York
RIC KELLER, Florida                  ADAM B. SCHIFF, California
DARRELL ISSA, California             LINDA T. SANCHEZ, California
JEFF FLAKE, Arizona                  CHRIS VAN HOLLEN, Maryland
MIKE PENCE, Indiana                  DEBBIE WASSERMAN SCHULTZ, Florida
J. RANDY FORBES, Virginia
STEVE KING, Iowa
TOM FEENEY, Florida
TRENT FRANKS, Arizona
LOUIE GOHMERT, Texas

             Philip G. Kiko, General Counsel-Chief of Staff
               Perry H. Apelbaum, Minority Chief Counsel



                            C O N T E N T S

                              ----------                              

                           SEPTEMBER 1, 2006

                           OPENING STATEMENT

                                                                   Page
The Honorable F. James Sensenbrenner, Jr., a Representative in 
  Congress from the State of Wisconsin, and Chairman, Committee 
  on the Judiciary...............................................     1
The Honorable Sheila Jackson Lee, a Representative in Congress 
  from the State of Texas, and Member, Committee on the Judiciary     3

                               WITNESSES

The Honorable Charles Grassley, a U.S. Senator from the State of 
  Iowa
  Oral Testimony.................................................    14
  Prepared Statement.............................................    16
Professor Robert Lee Maril, Chair, Department of Sociology, East 
  Carolina University
  Oral Testimony.................................................    27
  Prepared Statement.............................................    29
Councilwoman Ann E. Michalski, City Council of Dubuque, Iowa
  Oral Testimony.................................................    31
  Prepared Statement.............................................    34
Mr. Michael W. Cutler, former Inspector, Examiner and Special 
  Agent, Immigration and Naturalization Service
  Oral Testimony.................................................    41
  Prepared Statement.............................................    43
Mr. John Fonte, Ph.D., Director, Center for American Common 
  Culture, Hudson Institute
  Oral Testimony.................................................    45
  Prepared Statement.............................................    48

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Committee on the Judiciary.....................................     5
Prepared Statement of the Honorable Steve King, a Representative 
  in Congress from the State of Iowa, and Member, Committee on 
  the Judiciary..................................................     8
Prepared Statement of the Honorable Alan K. Simpson, former U.S. 
  Senator from the State of Wyoming..............................    10

                                APPENDIX
               Material Submitted for the Hearing Record

Closing Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Committee on the Judiciary.....................................    73


    IS THE REID-KENNEDY BILL A REPEAT OF THE FAILED AMNESTY OF 1986?

                              ----------                              


                       FRIDAY, SEPTEMBER 1, 2006

                  House of Representatives,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9 a.m., in 
Meeting Rooms 1 and 2, the Grand River Center, 500 Bell Street, 
Dubuque, IA, the Honorable F. James Sensenbrenner, Jr. 
(Chairman of the Committee) presiding.
    Chairman Sensenbrenner. The Committee on the Judiciary will 
be in order. A quorum for the purpose of taking testimony is 
present.
    Before beginning the hearing, I'd like to introduce the 
Members of the Committee who have come to Dubuque today. I'm 
Congressman Jim Sensenbrenner of Wisconsin, Chairman of the 
Committee on the Judiciary.
    Seated to my right are Representative John Hostettler of 
Indiana, who is the Chairman of the Immigration and Claims 
Subcommittee; Congressman Steve King of the other end of Iowa; 
and Congressman Louie Gohmert of Texas. And seated to my left 
is Congresswoman Sheila Jackson Lee, who is the Ranking 
Democratic Member on the Subcommittee on Immigration and 
Claims, and she represents a district in Houston, Texas.
    The Chair welcomes all of those who have joined us in the 
audience today and hopes that those present will remain 
respectful of these proceedings and maintain proper order 
throughout the hearing. This is a very emotional subject, there 
are going to be some statements that are made that people 
enthusiastically agree with or violently disagree with. And 
usually what will happen is that when one witness or one Member 
of the Committee makes a statement that's on one side of the 
issue, you're going to hear a statement or a question on the 
other side of the issue pretty quickly. The Rules of the House 
provide that there shall be no expressions of either approval 
or disapproval of any of the statements that have been made or 
questions that have been asked. And the Chair will not hesitate 
to enforce those rules. So let me ask you to be respectful of 
the statements that you don't agree with and try to refrain 
yourself for those statements that you do agree with, you know, 
and that way, we will be able to conduct this hearing in a 
manner that is consistent with the Rules of the House and 
consistent with the tone of hearings which are designed to 
elicit testimony and comments and let the people know that 
Congress is considering this very important issue.
    Now, I'd like to again welcome you all to this Committee's 
fifth and final field hearing on the subject of illegal 
immigration. The hearings have examined many of the challenges 
our Nation currently faces with regard to illegal immigration 
and the impact that the Senate-passed Reid-Kennedy Bill would 
have if it were to become law.
    Today's hearing will focus on whether enacting the amnesty 
component would result in the same policy failures as those 
experienced after Congress granted millions of illegal 
immigrants amnesty in 1986.
    Our Nation's broken immigration system has allowed the 
illegal immigrant population to grow at an unprecedented half 
million persons a year. Our previous hearings have shown that 
this has placed unsustainable burdens on the backs of American 
taxpayers, our schools and criminal justice system, our 
healthcare services, and relegated disadvantaged Americans to 
progressively bleaker futures and effectively penalized legal 
immigrants who have patiently played by the rules.
    Much of the current immigration chaos is a direct result of 
the disastrous step Congress took two decades ago in passing 
the Immigration Reform and Control Act of 1986--without my 
vote, I might add. In that legislation, Congress offered 
amnesty to many of the illegal immigrants residing in the 
country at the time, but also promised a crackdown on illegal 
immigration, to ensure that future amnesties would not be 
necessary. IRCA sought to end the job magnet that attracted 
most illegal immigrants by, for the first time, making it 
unlawful for employers to knowingly hire illegal immigrants and 
requiring employers to check the work eligibility of all new 
employees.
    The Administration was successful in granting amnesty to 
millions of illegal immigrants, but IRCA itself provided no 
effective mechanism by which employers could ascertain whether 
newly hired employees were legally eligible to work. It simply 
asked employers to see if the documents presented by the 
applicants looked genuine. The wide availability of inexpensive 
counterfeit documents have made a mockery of this process.
    Compounding the flawed design of IRCA, the INS never 
vigorously enforced the new employer sanctions law. And each 
succeeding Administration, Democrat or Republican, has put 
fewer resources into enforcing employer sanctions than the one 
before. Let me cite these statistics:
    The total hours worked by investigators on employer 
sanctions cases fell from almost 714,000 in 1997 to 135,000 in 
2004, a drop of 81 percent.
    The number of notices of intent to fine employers for 
violations fell from 1461 in 1992 to three in 2004, a drop of 
99 percent.
    And the number of arrests of illegal alien employees fell 
from 17,552 in 1997 to 445 in 2003, a drop of 97 percent.
    We have gotten to the point where employers who want to 
hire illegal immigrants have absolutely no worry that they'll 
be investigated; and as a result, we now have some 12 million 
illegal immigrants in the country, about seven million of whom 
are working.
    Congress, in 1986, should not have ignored the 
recommendations made by the Select Committee on Immigration and 
Refugee Policy headed by Father Theodore Hesburg, then the 
President of Notre Dame University. The Commission found, 5 
years earlier, that ``We do not believe the U.S. should begin 
the process of legalization until new enforcement measures have 
been instituted to make it clear that the U.S. is determined to 
curtail new flows of undocumented/illegal immigrants. Without 
more effective enforcement than the U.S. has had in the past, 
legalization could serve as a stimulus to further illegal 
entry. The Select Commission is opposed to any [their 
underline] program that could precipitate such movement.'' That 
is Father Hesburg.
    As we now know, the Hesburg Commission's prediction has 
come true and illegal immigration, post-IRCA, has expanded from 
a regional to a national dilemma. However, the Senate-passed 
Bill chooses again to ignore the Commission's warning by 
failing to place enforcement first. The Bill grants amnesty to 
the vast majority of the illegal immigrants in the U.S. and 
promises that enforcement will follow. The American people have 
seen the results of this strategy in the past and recognize 
that the Reid-Kennedy Bill will not cure our illegal 
immigration problem, but will simply compound it.
    Before yielding to a Member of the Minority for her opening 
remarks, I would like to remind Members, witnesses and those in 
the audience that this hearing is being conducted consistent 
with all applicable Rules of the U.S. House of Representatives 
and the Judiciary Committee. Therefore, I ask the witnesses to 
limit their remarks to 5 minutes of oral testimony--I will be a 
bit flexible in enforcing that--and will recognize Members for 
5 minutes of questioning, alternating between Minority and 
Majority Members seeking recognition.
    I now recognize the gentlewoman from Texas, Ms. Jackson Lee 
to make an opening statement for the Democrats.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. It's 
good to be with you again. This has been quite a friendship 
throughout the summer, some 21 hearings, I think we're at the 
end.
    Let me say, it's very good to be in Dubuque and I thank you 
for the heat wave. I have been in Iowa during the caucuses and 
you've given me a 12 degree minus or above, but I'm delighted 
to be here this morning. I'm not sure of the sound, but I'll 
keep moving. There may be something wrong there. I think I can 
be heard, thank you, Mr. Chairman.
    And as well, I think it's important to note that Iowans are 
really strong on common sense, good judgment and a practical, 
reasonable response to the Nation's concerns. And I agree with 
you, that immigration and the response to immigration should be 
a concern of the American people. I'm also reminded by the 
history books that certainly it is noted and noteworthy that 
Iowans know about immigration and, therefore, the immigration 
that you know about is one that has been welcoming.
    I consider these hearings, again, a standard road show that 
doesn't address the question of serious response to a serious 
question. Why do I say that? First of all, I am still looking 
for the Reid-Kennedy Bill. There is no such bill. There is a 
bill that was supported in the Senate by Hagel, Martinez--two 
Republicans--Senator Specter, a Republican, that passed out of 
the Senate Judiciary Committee that talked about comprehensive 
immigration reform, border security--real border security 
unlike my friends in the House who have repeatedly voted 
against funding border security and border patrol agents on the 
border.
    My legislation, H.R. 4044, included comprehensive support 
of our Border Patrol agents. In fact, Senator Kerry offered 
that amendment, which was accepted into the Senate Bill.
    I note very much that there is a rich history in this 
community and I was noting that there have been strong voices. 
Throughout the hearing, I will offer into evidence, for 
example, Church Leaders to Rally in Dubuque for Immigrants. 
Bishop Gregory D. Palmer of the Iowa Conference of the United 
Methodist Church and others have expressed a wider view on this 
issue.
    Now let me say this, none of us are running away from the 
question of border security. In fact, we realize that IRCA--
which was passed in 1986, which did give amnesty, it indicated 
that if you were here for a certain period of time--failed 
because there was no enforcement in the other provisions of the 
legislation. You can be sure that Democrats are not running 
away from enforcement. In fact, employer sanctions are an 
element of our understanding.
    But when you have communities, like Iowa, that have a heavy 
agricultural industry, I would offer to say that there are 
probably reasonable immigration populations here, working at 
Tyson's, working at other meat packing entities, who have come 
here to work. What is the basic underlying problem? One of the 
problems is a lack of a minimum wage. And it is important, 
therefore, that when we discuss immigration reform, we should 
be talking about the right kind of labor standards, the right 
kind of compensation for all Americans. And we should also be 
talking about ensuring that all Americans are equal and able to 
be working, employed and to have full employment.
    So the question before us is how do we sensibly address the 
question of immigration reform? With a little good humor, a 
little sense of the understanding of the diversity of this 
Nation, the understanding of the founding of this community by 
a French trader, an immigrant, and the understanding of our 
basic history.
    The Statue of Liberty still stands. America is still noted 
as a Nation that is a Nation of immigrants, but a Nation of 
laws. We are first, second and third generation, but we are not 
those who demagogue, malign and give false information. And I 
would suggest that any characterization of this legislation as 
a Reid-Kennedy Bill, the Majority Leader Reid and Senator 
Kennedy, two Democrats, is false information. Any such 
suggestion that the present language of the bills that are 
before the House and the Senate are amnesty is false 
information. It is true, however, that I think we should be 
rushing back to Washington and addressing this in a conference. 
And I know that the Council Member is aware, by her legislative 
knowledge, that you have a House and Senate Bill.
    So, therefore, I hope that this hearing will generate 
information, Mr. Chairman. I would hope that you would open up 
an open mic so the good citizens of this community could really 
be heard. That would be a town hall meeting in Iowa that would 
be fitting of the democracy and character of Iowans. I hope 
that we will hear from you, I will be ready to hear from you.
    Thank you very much. And we are Americans and we need to do 
this in a way that is befitting of the value of our country--
freedom and justice and equality and democracy for all of us.
    Chairman Sensenbrenner. The time of the gentlewoman has 
expired.
    Without objection, all Members may insert opening 
statements in the record at this point.
    [The prepared statement of Ms. Jackson Lee follows:]
       Prepared Statement of the Honorable Sheila Jackson Lee, a 
    Representative in Congress from the State of Texas, and Member, 
                       Committee on the Judiciary

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    [The prepared statement of Mr. King follows:]
  Prepared Statement of the Honorable Steve King, a Representative in 
Congress from the State of Iowa, and Member, Committee on the Judiciary
    Mr. Chairman,
    Thank you for bringing this hearing to Iowa. I am looking forward 
to hearing from the witnesses today, including Iowa's senior Senator, 
Chuck Grassley.
    Today at this hearing, we will ask whether the Reid-Kennedy bill is 
a repeat of the failed amnesty of 1986. I submit that the Senate bill 
is not only a repeat of the 1986 amnesty, but during a Global War on 
Terror--it is national suicide.
    In 1986, Congress passed the Immigration Reform and Control Act, 
which gave amnesty to all illegal aliens who had evaded law enforcement 
for at least four years, or who were here working illegally in 
agriculture. This resulted in 2.8 million illegal aliens being admitted 
as legal immigrants to the United States.
    The amnesty of 1986 was supposed to be a ``one time only'' amnesty. 
Yet, Congress has passed a total of 7 amnesties for illegal aliens, 
including the '86 amnesty. Today, we are considering yet another 
amnesty thinly veiled as a ``guest worker'' program. Today's amnesty 
dwarfs the 1986 amnesty in comparison, by granting citizenship to 12-20 
million illegal aliens, and allowing in another 67 million dependents 
through chain migration over a twenty year span.
    To put this into perspective, during the ``great migration'' of the 
1900's, foreign born persons made up around 13 to 15 percent of the 
U.S. population. If the Reid-Kennedy amnesty bill were enacted, foreign 
born persons would rise to over 22 percent of the U.S. population. 
There is no precedent for that level of immigration at any time in U.S. 
history.
    An amnesty is a reward to those breaking the law. Under the Senate 
bill, illegal aliens will have to pay a fine, but this is just small 
change compared to what illegals are currently willing to pay coyotes 
to smuggle them over already. In the end, illegal aliens will be 
rewarded with what they want: citizenship.
    Issuing amnesty to such lawbreakers will only encourage more 
illegal immigration into the United States. After the 1986 amnesty, 
illegal immigration increased significantly. If the Senate amnesty bill 
is passed, in another 20 years we'll be having the same debate all over 
again as people come illegally to get in line for the next amnesty.
    An amnesty benefits neither our society nor those awarded amnesty. 
After the 1986 amnesty, an Immigration and Naturalization Service study 
found that after living in the United States for 10 years, the average 
amnestied illegal alien had only a seventh grade education and earned 
less than $9,000 a year.
    By granting amnesty, Congress places a staggering financial burden 
on American taxpayers to support those pardoned. According to a study 
by the Center for Immigration Studies, the total net cost of the 1986 
amnesty amounted to over $78 billion in the ten years that followed. A 
recent Congressional Budget Office analysis concluded the Senate's 
amnesty bill would cost U.S. taxpayers $126 billion over the next 
decade, as the government begins paying out welfare benefits to 
millions of new low-skilled workers and cracks down on the border.
    During this Global War on Terror, the Senate amnesty bill endangers 
the life and security of every American. It sets an unrealistic 
timeline for DHS to process the millions of background checks required, 
in a system corrupted by fraudulent documentation. The Reid-Kennedy 
bill is also unfair to the scores of legal immigrants who have 
patiently respected America's rule of law and waited years before being 
admitted into the United States as proud lawful visa holders.
    I do not believe anyone here on this committee is opposed to legal 
immigration. I believe that legal immigrants have made and will 
continue to make invaluable contributions to American history and 
culture. I believe we should work to develop an immigration policy that 
aids in the assimilation of newcomers. Assimilation is beneficial to 
immigrants who benefit from our shared American culture of personal 
responsibility, freedom and patriotism.
    However, I am strongly opposed to individuals who blatantly ignore 
America's respect for the rule of law and are now flaunting it in our 
streets. The growing anti-American sentiment in Latin America is now 
spilling over our southern border and spreading throughout the United 
States.
    Last week during another pro-illegal immigrant protest, this time 
in the sanctuary city of Maywood, California, the American flag was 
taken down in front of a U.S. post office, trampled on, and replaced by 
a Mexican flag amid cheers from Maywood's 96% Hispanic population, of 
which it is estimated over half are illegal aliens. Hundreds of 
protesters held up large banners that read ``All Europeans are illegal 
on our continent;'' ``Stolen Continent'' with a picture of North 
America; and ``This is our continent--not yours!'' Watching videos of 
the event--which at times turned violent--I was alarmed by the hatred 
for America and racial slurs spewing from the side holding the banners 
declaring ``Say NO to Racism.''
    The supporters of the Senate amnesty bill claim that such displays 
are fringe groups, and that most illegal aliens want to assimilate and 
become American. Here in Iowa, I was taught that actions speak louder 
than words. This year, Americans witnessed thousands of demonstrators 
marching through our streets proudly flying Mexican and Latin American 
flags. American flags have been taken down from public schools, 
trampled on and hung upside down beneath the Mexican banner.
    I believe that before we even talk about amnesty we must 
demonstrate to the American public that our borders are secure. 
Protecting America from terrorists and those that wish us harm is our 
first priority. We must also get rid of the jobs magnet that brings 
illegal aliens into our country.
    In response to the growing problem of aliens working in the United 
States illegally, I introduced the New IDEA (Illegal Deduction 
Elimination Act) which protects jobs for Americans. New IDEA makes 
wages and benefits paid to illegal aliens nondeductible for federal tax 
purposes. This would encourage employers to hire legal workers which 
would make more jobs available for American workers.
    I do not believe it is practical to round up and deport the 12 to 
20 million illegal aliens in our midst. However, through the combined 
tactics of securing the border and employer enforcement, we will 
eliminate the magnets that draw illegal aliens into our country, and 
the remaining will return to their home countries through attrition.
    I look forward to the testimony today, and I welcome the Chairman 
and other honorable members, witnesses and visitors to Iowa.
    Thank you, Mr. Chairman.

    Chairman Sensenbrenner. Before introducing the witnesses, 
let me say that I invited former Senator Alan Simpson, who was 
the principal Senate sponsor of the 1986 Simpson-Mazzoli Bill, 
also know as IRCA, to appear here today. His family is putting 
on a 75th birthday party for him and if that had happened to 
any of us, I think we all would have known that that would take 
precedence over coming to talk before our Congressional 
Committee.
    But I'd like to ask unanimous consent to insert Senator 
Simpson's statement in the record at this point, because I 
think it is particularly insightful in his analysis on why his 
piece of legislation failed.
    So without objection, the Simpson testimony will be 
introduced in the record.
    [The prepared statement of Mr. Simpson follows:]

   Prepared Statement of the Honorable Alan K. Simpson, former U.S. 
                   Senator from the State of Wyoming

    Mr. Chairman, and Members of the Committee, thank you for your 
invitation to share my thoughts with you on the lessons of the 
Immigration Reform and Control Act of 1986 (``IRCA''), and how they may 
apply to the current immigration reform debate--and impasse--currently 
taking place in Congress.
    First let me express to the Chairman that even though we have 
butted heads a few times in the past I do recall the fine work we did 
together while working on conference committees with Chairman Rodino 
and Ron Mazzoli and Ham Fish. I have great respect and admiration for 
you and your work on this tough issue of immigration.
    Let me say that IRCA was well-intended, bipartisan legislation that 
was worthy of passage in 1986. I am proud of my efforts and the efforts 
of my colleagues back then; Congressman Ron Mazzoli (D), Peter Rodino 
(D) and Senator Strom Thurmond (R) and others--from both parties, and 
in both houses--to take responsible steps to control illegal 
immigration and reform our outmoded immigration laws. It is true that 
this law has not satisfied its expectations or its promises, but it is 
not because good faith efforts were lacking when Congress debated and 
passed the legislation. Nonetheless, 20 years later, we must make a 
candid assessment of ``what went wrong'' with the legislation, and what 
deserves to be retained, as Congress again grapples with measures to 
control unlawful immigration.
    I believe there are three principal lessons to be learned from 
IRCA:

        (1)  a more secure employment verification system was lacking 
        in IRCA, and subsequent administrations frustrated it even 
        further as the law was implemented, and this remains the 
        critical problem that must be fixed if illegal immigration is 
        ever going to be deterred;

        (2)  ``amnesty'' may yet be justified in some certain 
        circumstances, but it should not take effect until a credible 
        body of policy-makers determines that effective enforcement 
        measures are in effect; and

        (3)  guestworker programs may be necessary, but Congress should 
        never repeat the mistakes of the Special Agricultural Worker 
        (SAW) program when addressing shortages in U.S. pools of 
        unskilled labor.

    Let me discuss each point in detail.

1. Secure Worker Verification.

    It should always be illegal for a U.S. employer ``knowingly'' to 
hire an unauthorized alien. There was a clear consensus on this point 
in 1986, and that consensus remains today. A crucial corollary to this 
policy, however, is that U.S. employers should be allowed to actually 
``know'' when they might be ``knowingly'' hiring an illegal alien. In 
other words, the burden of a more secure worker verification system 
should be placed squarely on the federal government, and not on U.S. 
employers. This requirement turned out to be the Achilles Heal of IRCA, 
and it was subsequently thoroughly mismanaged by succeeding 
Administrations of both parties.
    In 1982, the U.S. Senate passed legislation (S. 2222, 97th Cong. 
1st Sess.) that contained a requirement for implementing a more secure 
worker verification system. Unfortunately, Congress did not complete 
action on this legislation. In the 98th Congress, the secure worker 
verification system was watered down significantly, and in the 99th 
Congress, when the law was finally enacted, the requirements for a 
``secure'' worker verification system were effectively emasculated. 
This all occurred despite the best efforts of myself and a 
conscientious bipartisan group of supporters of the legislation. Simply 
put, there was no political consensus in 1986 for a more secure 
document, or a secure database, or any other proposal on which U.S. 
employers could rely. As a result, the employer sanctions regime became 
easily defeated by high-quality, low-cost fraudulent documents that 
``on their face appear genuine.'' For nearly 20 years, all factions 
agreed that employment in the U.S. was the principal magnet that drew 
illegal immigrants to the United States, yet there was insufficient 
political support for--and nearly hysterical and emotional warnings not 
to address--the one most glaring loophole in employer sanctions: the 
widespread availability of counterfeit documents.
    The records of Republican and Democratic Administrations since 1986 
are equally deficient in addressing the obvious problem of document 
fraud. Bureaucratic turf battles prevented the more effective use of 
the Social Security Card or the Social Security Account Number. The INS 
soon grew tired of pursuing employers for I-9 violations, since 
fraudulent documents defeated the system with such ease. The Justice 
Department did not make prosecution of document fraud a priority, so 
any likelihood that a documents vendor would be ``caught'' was quite 
remote. Presidents failed to even speak to the Nation about the serious 
problems that can occur when a country such as ours has porous borders 
and insecure identity documents. It unfortunately took the tragedy of 
9/11 to bring this glaring weakness in our homeland security to the 
attention of all Americans and the World.
    Lesson Number One from IRCA therefore is that immigration reform 
legislation must establish a truly secure worker verification for all 
U.S. workers and all U.S. employers. The signs so far are rather 
encouraging: both House and Senate bills contain electronic employment 
authorization systems, based on the SSA and DHS databases, that will 
eventually apply to all U.S. employers. Indeed, the most significant 
political ``shift of winds'' I have witnessed in the intervening 20 
years is that there now seems to be a political consensus for 
establishment of a secure worker verification system. That is a real 
change in national politics, and an indication of just how serious the 
problem of illegal immigration has become.
    It is therefore the responsibility of this Congress to heed these 
calls for change and to take full advantage of this new political 
consensus. The secure worker verification provisions in House and 
Senate bills must in fact be truly secure at the most critical point in 
the process--at the time of any ``new hire.'' Has this in fact been 
accomplished? I am not so sure of that. It is my understanding that 
identity theft could still defeat--at ``new hire'' time--the proposed 
electronic employment verification systems seen in both bills. While 
resources are provided for the investigation of identity theft by our 
law enforcement agencies, this model of deterrence has already been 
proven to be a failure. There are 8 million U.S. employers, the vast 
majority of whom are law abiding. If identity theft is the best scheme 
to defeat the verification system, identity theft will occur with great 
frequency. There simply will never be enough ICE or SSA agents to 
counteract the tremendous economic incentives for illegal aliens to 
work in the United States.
    I can well imagine that all of the relevant federal agencies are 
dramatically advising you that furnishing employers proper information 
about identity theft in the initial response from the database is just 
not feasible, or that it will cost too much. Don't listen to them. 
These are the very same agencies who have skillfully played their 
violins for 20 years while the employer sanctions regime burned to the 
ground. It is now fully up to Congress to set policy, and that policy 
must be the establishment of a secure worker verification system. Yet 
the federal agencies should indeed be consulted on the best manner to 
implement the requirements, on time-tables, and on similar topics. But 
the American public is demanding immigration reform, and Congress 
should heed and respond accordingly. If only one lesson can really be 
learned from IRCA, then this is surely the one. We simply can't afford 
to get this one wrong a second time.

2. Amnesty Triggered by Effective Enforcement Measures.

    IRCA provided legal status to nearly three million people who had 
resided unlawfully in our country since January 1, 1982. The bipartisan 
sponsors of IRCA described it as a responsible ``trade-off'' for the 
establishment of employer sanctions and the definitive declaration that 
the United States was fully opposed to unauthorized immigration. I well 
recall describing the program as being for ``one-time only,'' and as 
``an extraordinary act of grace.'' I meant that then, and I 
respectfully encourage this Committee to again consider those words 
now. Amnesty is indeed extraordinarily generous, and fully within the 
discretion of the Congress to bestow or to withhold. The question today 
is: should amnesty be granted once again? I believe the answer is, 
``Yes, in limited situations and for practical reasons, but only after 
all of the effective enforcement measures are in place.''
    ``Experts'' estimate the current illegal population in the U.S. at 
11 million. The number itself is staggering. The maximum number 
estimate in 1986 was 6 million. Clearly, the problem has become much 
worse in 20 years, not better. But an enormous practical problem 
remains about how to realistically deal with this population. Perhaps a 
secure worker verification system could encourage them to leave--over 
time. This then is even more reason for ensuring that any worker 
verification system must be truly secure. History shows us, however, 
that relying on attrition alone will not be successful for the majority 
of this cohort. Some form of amnesty must therefore at least be 
considered, for practical reasons if for no other.
    At this time, the 1986 Senate version of legalization should be 
adopted. The 1986 Senate bill stated that no legalization program was 
to take effect until an independent commission had determined, and 
reported to the President, that effective enforcement measures had been 
implemented that were reasonably likely to deter illegal immigration in 
the future. The House insisted that this provision be deleted in 
conference in 1986, and it was. On this second time around the track, 
however, such a provision appears to me to be essential. There are 
simply no more excuses out there for illegal immigration this time. 
Every sensible soul knows full well that people should not come to our 
generous Country without authentic authorization. Enacting any form of 
amnesty immediately (even if the benefits are to be deferred), before a 
secure worker verification system and increased border enforcement are 
fully implemented, is wholly illogical. Agreeing to any measure of 
amnesty before an assessment has been made that no further amnesties 
will be necessary in the future is simply damn foolish policy.
    In addition, I believe there is some political merit to a 
``triggered amnesty.'' I know there is strong resistance in many parts 
of America today to an amnesty program. That resistance is reflected in 
substantial voting blocs in the House of Representatives. At the same 
time, the Senate appears unlikely to pass legislation that does not 
address what we are to do with the 11 million unauthorized aliens who 
already reside in our midst. I must confess I am a bit more sympathetic 
to the Senate position on policy grounds--and of course not just 
because I was a member of that august body for 18 years!! Yet I was 
also Majority and Minority Whip of the Senate for many years, and can 
well understand the serious practical problem of assembling a majority 
in the two Houses to pass legislation that is truly in the national 
interest. In this context, I believe a form of ``triggered amnesty'' 
might bridge the political gap between the two bodies and enable the 
entire package of valuable reforms to move forward.

3. Guestworker Programs.

    Guestworker issues haunted IRCA for two Congresses and proved to be 
one of the thorniest political and policy challenges that we faced. I 
can honestly say that IRCA's resolution of the issue--creation of the 
Special Agricultural Worker or ``SAW'' program--was a real mistake. The 
SAW program was a political compromise that was made necessary in order 
to enact the legislation. (Don't we Congresspersons all remember that 
ritual?!) In order to satisfy employer interests who were seeking a 
large pool of unskilled labor, the terms of the program were overly 
generous (a mere 90 days of ``labor in agriculture'' qualified an 
unauthorized alien for the SAW program). In order to satisfy organized 
labor and immigrants' rights organizations, the status provided to the 
``guestworkers'' had to be permanent (reportedly to avoid employer 
exploitation), not temporary. As a result, over 1.3 million people 
obtained permanent residence under the SAW program, and the vast 
majority of them then promptly exited agricultural labor--if they had 
ever even worked at that in the first place. You can bet the need for 
unskilled labor then arose again in short order. This was certainly the 
worst of all possible outcomes.
    IRCA's lesson on guestworkers therefore is to make certain that the 
terms of the program are dictated by sound practical policy, and not by 
coalition politics. First, Congress should determine that guestworkers 
are indeed necessary. There is a serious argument today that they are 
critically needed, given the current demographic trends which project a 
large pool of aging workers and a shrinking pool of younger workers. 
Still, that alone is not enough. Perhaps there are some unskilled jobs 
that should be mechanized or outsourced, and today is the right moment 
for the great entrepreneurs in our America to figure out just how to do 
so. I would suspect, however, that there will always remain jobs which 
cannot be mechanized or outsourced, and the diminishing pool of younger 
Americans will not fill them. In that situation, a guestworker program 
may well prove to be a rational response.
    Second, careful thought should be given to the form of the 
guestworker program. If the SAW program is any lesson at all, it is 
surely inefficient and ultimately futile to grant permanent residence 
to a group of foreign nationals in the hope that they will perform 
unskilled labor that most Americans today will avoid. If the 
guestworker program is honestly intended to address labor shortages, 
then a temporary status that is linked to specific employers or 
specific industries (with appropriate protections against abusive 
employers), is the proper policy choice. Along those lines, I find the 
recent proposal of Cong. Mike Pence (R-IN) to be interesting. Using the 
``J-1'' exchange visa model, he has crafted a guestworker program that 
would seem to target labor shortages without seeking to address 
additional immigration issues. While I haven't studied his program in 
great depth, I believe the proposal focuses on the proper priorities 
and is worthy of serious consideration--and besides he seems to be 
catching hell from ``both sides'' so he must be on the right track!!
    Finally, the Pence Bill also contains an important enforcement 
component that again seems to be sound policy and good politics: that 
no employer may utilize the guestworker program until after enrolling 
in the electronic employment authorization program. If a company is to 
be given the valuable benefit of hiring foreign guestworkers, then it 
should ensure that all of its employees are authorized to work. A 
frequent criticism of guestworker programs is that they simply 
encourage more unauthorized migration, thus a form of ``triggered 
guestworker program'' will also serve to counteract this problem.

4. Conclusion.

    I respectfully thank you for considering these thoughts, and I 
stand ready to assist you in any way I possibly can. Most importantly, 
I commend you for tackling one of the toughest and most unrewarding 
political tasks there is--immigration reform. Yet there is no more 
important work that you will do during your tenure in Congress.
    God Bless you in your deliberations.

    Chairman Sensenbrenner. Let me introduce our witnesses on 
today's panel. First will be U.S. Senator Charles Grassley, who 
is the senior Senator representing the State of Iowa and 
currently serves as the Chairman of the Senate Finance 
Committee. He was elected to the Iowa Legislature in 1958, the 
U.S. House of Representatives in 1974 where he learned most of 
what he knows now, before being elected to the Senate in 1980. 
[Laughter.]
    Prior to his career in public service, Senator Grassley 
worked as a farmer and received his bachelor's and master's 
degrees in political science at the University of Northern 
Iowa.
    Another witness will be Michael Cutler, who currently 
serves as a Fellow at the Center for Immigration Studies. He is 
a retired Senior Special Agent with the Immigration and 
Naturalization Service's New York District Office. And in the 
past, Mr. Cutler has appeared as a witness at Congressional 
hearings at the invitation of both Republican and Democratic 
Members.
    Also, Dr. John Fonte, who has served at the Hudson 
Institute since March 1999 as a Senior Fellow and Director of 
the Center for American Common Culture. Dr. Fonte has 
previously been a visiting scholar at the American Enterprise 
Institute and he served as a senior researcher at the U.S. 
Department of Education. He has also written numerous articles 
and essays appearing in national and international newspapers, 
journals and magazines. He holds a Ph.D. in world history from 
the University of Chicago and a B.A. and M.A. in history from 
the University of Arizona.
    Also, Councilwoman Ann Michalski, who is one of two at-
large members of the Dubuque City Council. She received a 
bachelor's degree in sociology from Clark College and a 
master's degree in theology from St. Xavier University in 
Chicago. She continued with post-masters work and pastoral 
studies at Chicago Loyola University. Councilwoman Michalski 
was the Director of Human Resources at the Gannon Center for 
Community Mental Health prior to her retirement.
    And finally, Dr. Robert Lee Maril, who is Chair and 
Professor of Sociology at East Carolina University. He is the 
author of seven books by university presses, including 
Patrolling Chaos: The U.S. Border Patrol in Deep South Texas. 
His scholarly research focuses on issues of border security, 
low wage labor and social inequality. He received his B.A. from 
Grinnell College and his master's degree in sociology from 
Indiana University and a Ph.D. in sociology from Washington 
University.
    I would like to thank you all for agreeing to testify 
before the Committee today.
    It is the general practice of this Committee to swear in 
all witnesses. I would like to ask each of the witnesses to 
please stand and raise your right hand and take the oath.
    [Witnesses sworn.]
    Chairman Sensenbrenner. Let the record show that each of 
the witnesses has answered in the affirmative.
    Again, I will recognize each of you for a flexible 5 
minutes. Senator Grassley has said that he has to leave for 
another engagement at 10:30, so if he leaves early before the 
hearing is over with, I think everybody will understand that, 
and we are honored to have you here. So Senator Grassley, why 
don't you be first.

  TESTIMONY OF THE HONORABLE CHARLES GRASSLEY, A U.S. SENATOR 
                     FROM THE STATE OF IOWA

    Senator Grassley. Okay. I would ask that the testimony that 
I have in front of me, which I have added to and subtracted 
from the one that was submitted to you, although not different 
in substance to a great extent, be the one that's included in 
the record.
    Chairman Sensenbrenner. Without objection, all of the 
witnesses' written statements will be placed in the record 
during their testimony and the Senator is recognized.
    Senator Grassley. At this point, it's my understanding that 
one of the reasons the House Judiciary Committee invited me to 
testify is because I was a Member of the Senate in 1986, 20 
years ago, the last time the issue of amnesty came before the 
United States Senate, to testify on the issues at that time and 
how they relate to the issue that's now before the House and 
the Senate on immigration reform, including in the Senate--not 
in the House--the issue of amnesty.
    The issue of amnesty was very central. As I recall, Senator 
Simpson said it was one of a three-legged stool, along with 
documentation, along with employer verification, and amnesty 
being a three-legged stool that was necessary to have a 
balanced program to get a bill through the United States 
Senate, plus having the issue of taking care of the problem, as 
we saw it at that time, to be good public policy.
    At that particular time, I think we had about one million 
people who had entered the country illegally and were 
considered in that category of the issue of amnesty and 
legalization. I supported amnesty, I don't know whether I 
supported it at that time with any reservations or not, I just 
don't remember. But I do remember statements that I put in the 
record at that particular time and statements that other people 
made.
    I voted against the Senate Bill this spring when it passed, 
not because most of it is not good legislation--the issue of 
border security, the issue of employer verifications, the use 
of the Social Security system to accomplish that verification, 
and a lot of things in the Bill that are very good. But I voted 
against it because of the amnesty provisions and what I felt 
was I needed to learn from a mistake of the past. And that was 
that I did vote for amnesty, because we were all assured that 
it would solve our problems and we were assured that we would 
only need to do it once. And so here we are again.
    I think that I have learned in 20 years that rewarding 
illegality just enhances more of it and encourages more of it. 
Maybe similar to if in Dubuque, Iowa, they never stopped 
anybody for running a red light or for speeding downtown, 
people would probably ignore that law. And we are a Nation 
based on the Rule of Law, we ought to emphasize that to 
everybody. We welcome legal immigrants, we want people to come 
here for whatever reason that they want to, but to come 
legally.
    And so that brings me then to some of the statements that 
were made at that particular time, and here I am referring to a 
small part of my testimony. In 1986, the Committee wrote that 
it believed ``The solution lies in legalizing the status of 
aliens who have been present in the United States for several 
years, recognizing that past failures to enforce immigration 
laws have allowed them to enter and to settle here.''
    Another quote from the Committee, ``The Committee strongly 
believes that a one-time [emphasis upon one-time] legalization 
program is a necessary part of an effective enforcement program 
and that a generous program is an essential part of any 
immigration reform legislation.''
    We had a Congressman from California, who I won't name, 
that said, ``We lend credence to the argument that this is a 
one-time legalization that will not be repeated. The perception 
that legalization will not be repeated is essential if we hope 
to avoid providing a new magnet to illegal migration.''
    And Senator Simpson--and this is not quoting him at this 
point, but let me read from my statement. Even Senator Simpson 
said that a one-time amnesty would prevent us from a continuing 
series of amnesties. Nobody disagreed with him. He stated 
that--and this is his quote--``The major reason for 
legalization is to eliminate an illegal sub-class within our 
society. This is the legislation that will eliminate this 
exploitable group. Some people like to say that they hope it 
will clean the slate; that is what we are trying to do is clean 
the slate.''
    So my addition is, the slate is not clean and the sub-class 
is still being exploited. Hence, I've learned from my lesson 
and I voted against the bill that we had before us, based on 
the issue of amnesty, and only based on the issue of amnesty.
    [The prepared statement of Mr. Grassley follows:]

 Prepared Statement of the Honorable Charles Grassley, a U.S. Senator 
                         from the State of Iowa

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Sensenbrenner. Thank you, Senator.
    Professor Maril.

 TESTIMONY OF PROFESSOR ROBERT LEE MARIL, CHAIR, DEPARTMENT OF 
              SOCIOLOGY, EAST CAROLINA UNIVERSITY

    Mr. Maril. Good morning, Members of Congress. My name is 
Robert Lee Maril and I'm Chair and Professor of Sociology at 
East Carolina University, as you've heard. This morning, I 
would like to share with you the findings of my ongoing 
research I'm conducting along the United States-Mexican border. 
I think these findings directly speak to the major issues that 
you are discussing in this hearing.
    I'm a sociologist who first began studying the border in 
1975 when I moved to Brownsville, Texas and began teaching at 
the college there. Much of my research since then has focused 
upon the border, especially my life-long interest focuses on 
the people and the history of this border region.
    In 1999, upon the urging of several students at my 
university, who were themselves agents of the United States 
Border Patrol, I began the first and only systematic and 
comprehensive study of the Border Patrol by a social scientist. 
For 2 years, I rode along with Border Patrol agents who were 
stationed at the McAllen Station in McAllen, Texas. I observed 
their daily and nightly work as they patrolled the line in 
their 10-hour shifts, recording in my hundreds of pages of 
notes how they did their work, what challenges they faced and 
the circumstances which surrounded these challenges. When I 
finished this part of the research, I began interviewing 
managers and supervisors of the United States Border Patrol. In 
addition, I analyzed statistical data, researched the history 
of this Federal agency and also served as a consultant to the 
United States Border Patrol.
    One product of this research effort is my book Patrolling 
Chaos. I'd like to report on four crucial findings this 
morning, although there are many, many others that I will not 
have time to discuss.
    First, our men and women in the United States Border Patrol 
are individuals of whom we can be proud. They're hard-working, 
motivated Americans who are trying to do the best they can. 
Their often courageous acts, which include saving and 
protecting the lives of American citizens and undocumented 
workers, as well as protecting public and private property are, 
in a word, exemplary. These acts often, however, go unnoticed 
in the media and are unrecognized, as a result, by the general 
public.
    Second, I want to express my concern for the safety and 
welfare of our agents as they patrol the line. Their 10-hour 
shifts regularly expose them to high-risk policing situations 
that put them in harm's way. I could give you many, many 
examples that I personally observed, but I want to stress that 
there are very direct ways you can help them that have been 
infrequently addressed in Congress. For example, agents lack 
the gear, the equipment and the technology to do their job. 
From holsters to hardened laptops to fire power to 
communications systems to sensors which actually work, the list 
goes on and on. At the present time, I want to report to you 
from my first-hand experience, that they are not adequately 
equipped to meet the demanding and dangerous task that they 
face when dealing with human traffic smugglers, human 
smugglers, drug smugglers, criminal gangs and possibly 
potential terrorists.
    One direct result of this long-standing state of affairs is 
that I personally observed thousands and thousands of 
undocumented workers illegally crossing the Rio Grande River; 
most, I'm here to tell you, escaped--most escaped. There are so 
many individuals crossing the Rio Grande River at this point, 
and in the past, that there are trails from the river long 
since worn deep into the ground by their shoes.
    There are so many individuals crossing the Rio Grande River 
that there are garbage dumps along the river that stretch for 
hundreds of yards, created as they cast off their wet clothes, 
created by green garbage bags which they carried their dry 
belongings in, and the black inner tubes and the empty plastic 
gallon bottles which they carry. There are so many crossing 
that there are young Mexican men on the south side of the 
river, who make their living as tube wranglers, swimming across 
from the south to the north to collect inner tubes, then tying 
them together and bringing them back to resell them to 
undocumented workers wishing to cross again. There are so many 
illegals that I sat night after night in a Border Patrol scope 
truck watching them and there were times I literally could not 
count all of the men, women and children in the groups crossing 
the border.
    The third thing I would like to tell you is that present 
attempts to limit the number of undocumented workers by 
arresting them and detaining them, as well as deporting OTMs, 
in the short term, achieves very little. The flow of illegal 
immigrants may stop for a few weeks or a few months, but as 
soon as the policy or the manpower relents, the undocumented 
workers always return, because they know they will find work in 
the United States that will pay more than $4.00 a day.
    Finally, fourth, I would like to suggest that these Border 
Patrol agents are needed--that more Border Patrol agents are 
needed, but they must be adequately recruited, trained, and 
then retained. There are several examples that I could mention, 
but I want to mention briefly that the majority of agents I 
observed, although their job was to patrol the banks of the Rio 
Grande River, did not know how to swim. I repeat--they did not 
know how to swim. As well, a significant number were hampered 
in the pursuit of illegal workers because they were not 
physical fit. Some are in poor or questionable physical shape. 
The recruitment and retention of female agents is grossly 
inadequate. The Border Patrol could easily meet its objective 
of new agents if they focused not only on the recruitment of 
female agents, but retention of female agents in a supportive 
working environment.
    Therefore, any bill which invests in border security by 
investing in the U.S. Border Patrol in the ways that I have 
mentioned will take the necessary first steps to reduce chaos 
in this region. We must invest in the United States Border 
Patrol. Any bill which provides for a worker management plan 
will also provide for more order along the border. Today, we 
have a history of failures. Now is the time to make the right 
kinds of changes.
    Thank you very much.
    [The prepared statement of Professor Maril follows:]

            Prepared Statement of Professor Robert Lee Maril

    Good morning members of Congress. My name is Robert Lee Maril. I am 
Chair and Professor of Sociology at East Carolina University. This 
morning I would like to share with you the findings on my ongoing 
research I am conducting along the United States-Mexican border. I 
think these findings directly speak to the major issues that you are 
discussing in this public hearing.
    I am a sociologist who first began studying the border in 1975 when 
I moved to Brownsville, Texas and began teaching at the college there. 
Much of my research since then has focused upon the border; the 
majority of my seven books reflecting in detail my life-long interest 
in the people and the history of the border region. I have lived along 
the border for approximately 17 years, most recently from 1999 to 2003, 
while I was Chair and Professor of Sociology at the University of Texas 
Pan American located in Edinburg, Texas. So my research is grounded 
both in the social sciences, as well as the real-life experiences of 
someone who, unlike many others who have voiced their opinions, have 
little idea of the realities of this region of the United States and 
northern Mexico.
    In 1999, upon the urging of several students at my university who 
were themselves agents of the United States Border Patrol, I began the 
first and only systematic and comprehensive study of the Border Patrol 
by a social scientist. For two years I rode along with border patrol 
agents who were stationed at the McAllen Station in McAllen, Texas. I 
observed their daily and nightly work as they patrolled the line on 
their 10-hour shifts, recording in my hundreds of pages of notes how 
they did their work, what challenges they faced, and the circumstances 
which surrounded them. When I finished this part of the research, I 
began interviewing managers and supervisors. In addition, I analyzed 
statistical data that was provided me, researched the history of this 
federal agency, and also served as a consultant at their request.
    The product of this research effort is my book Patrolling Chaos: 
The US Border Patrol in Deep South Texas. I would like to report on 4 
crucial findings this morning although there are many, many others that 
I will not have time to discuss.
    First, our men and women in the Border Patrol are individuals of 
whom we can be very proud. They are hard-working, motivated Americans 
who are trying to do the best they can. Their often courageous acts, 
including saving the lifes of undocumented workers, as well as 
protecting public and private property are, in a word, exemplary. These 
acts often go unnoticed in the media and are unrecognized, as a result, 
by the general public.
    Second, all that said, I want to express my concern for the safety 
and welfare of our agents as they patrol the line. Their 10-hour shifts 
regularly expose them to high risk policing situations that put them in 
harm's way. I can give you example after example that I personally 
observed, but I want to stress that there are very direct ways you can 
help them that have been infrequently addressed. For example, agents 
lack the gear, the equipment, and the technology to do their job. From 
holsters to hardened lap tops to firepower to communications systems to 
sensors which actually function, the list goes on and on. At the 
present time, I want to report to you from my first-hand experience 
that they are not adequately equipped nor professionally trained to 
meet the demanding and dangerous tasks they face when dealing with 
undocumented workers, illegal drugs, criminal gangs, and potential 
terrorists.
    One direct result of this long-standing state of affairs is that I 
personally observed thousands and thousands of undocumented workers 
illegally crossing the Rio Grande River; most, I am here to tell you, 
escaped. There are so many individuals crossing that there are trails 
from the river long since worn into the ground by their shoes.
    They are so many individuals crossing the Rio Grande that there are 
garbage dumps along the river that stretch for hundreds of yards, 25 
yards wide, created as they cast off their wet clothes, the green 
garbage bags that they carried their dry belongings in, and the 
omnipresent black inner tubes and empty, plastic gallon bottles. There 
are so many crossing that there are young Mexican men on the south side 
who make their living as ``tube wranglers'', swimming across from the 
south to round up the inner tubes on the north shore of the Rio Grande, 
then tying them together to bring back to resell them to illegals 
wishing to cross. There are so many illegals that I sat night after 
night in a Border Patrol scope truck watching them; there were times I 
literally could not count all of the men, women, and children in the 
groups that were crossing the border.
    The third thing I want to tell you, and perhaps it is not what you 
want to hear but I have to tell you anyway, is that present attempts to 
limit the number of undocumented workers by arresting them and 
detaining them, as well as deporting OTM's, in the short term, achieves 
very little. Except that it makes us perhaps feel better. The flow of 
illegal immigrants may stop for a few weeks, or a few months, but as 
soon as the policy and/or the manpower relent, the illegals always 
return. In the meantime, they will find other places to cross the 
border that are easier.
    The same, by the way, is also true of illegal drugs. The flow of 
illegal drugs is unimaginable if you don't see it with your own eyes. 
Tons and tons of marijuana, cocaine, and increasingly methamphetamines 
are brought every day across our national border. The Border Patrol has 
never had the personnel, the equipment, nor the professional training, 
to make much of a difference. It still doesn't. The War on Drugs is 
over. Our side has lost.
    Finally, fourth, I want to suggest that more border patrol agents 
are needed, but they must be adequately recruited, trained, and then 
retained. There are several acute examples of this I will but mention 
briefly. The majority of agents I observed, although their job was to 
patrol the banks of the Rio Grande River, did not know how to swim. I 
repeat, they did not know how to swim. As well, a significant number 
were hampered in their pursuit of illegal workers because they were not 
physically fit; they are in poor or questionable physical shape. The 
recruitment and retention of female agents is grossly inadequate. The 
Border Patrol could easily meet its objective of new agents if they 
focused not only on the recruitment of female agents, but retention of 
female agents in a supportive working environment. Finally, I believe 
that graft and corruption may dramatically increase among agents as the 
drug cartels, which have immense sums of money, increase their efforts 
to bribe our agents, their supervisors, and their managers.
    Any bill which invests in border security by investing in the US 
Border Patrol in the ways suggested will take the first steps necessary 
to reduce chaos in this region. We must invest in the Border Patrol. 
Any bill which provides for a worker management plan will also provide 
for more order along the border. To date we have a history of failures. 
Now is the time to make the right kinds of changes.
    Thank you, Congressmen and Congresswomen, for your attention and 
patience.

    Chairman Sensenbrenner. Thank you Professor Maril.
    Councilwoman Michalski.

          TESTIMONY OF COUNCILWOMAN ANN E. MICHALSKI, 
                 CITY COUNCIL OF DUBUQUE, IOWA

    Ms. Michalski. Good morning, Chairman Sensenbrenner and 
other Members of the Committee, and thank you for calling this 
hearing and inviting me to testify on issues related to the 
McCain-Kennedy Immigration Bill.
    Immigration reform is certainly one of the most important 
issues that our Nation faces at this current time. Some media 
voices have questioned why one of these hearings should be held 
in Dubuque, Iowa. While not as immediately impacted as cities 
along our Nation's northern and southern borders, these 
comments betray a lack of understanding of the true dimensions 
of the challenge. For this reason, I was pleased, as a Dubuque 
City Council member and as a member of the National League of 
Cities Human Development Steering Committee to participate in a 
3-day work session in Wichita in May, where we hammered out a 
policy statement, subsequently approved unanimously by the 
Executive Board of the National League of Cities. I have 
submitted a copy of that resolution to be considered part of my 
testimony this morning. My oral remarks will link that 
resolution to the challenges faced by the City of Dubuque.
    Dubuque, like every city in the United States, is a city of 
immigrants. Founded by a French fur trader in the 18th century, 
we have lived under five flags through the years, ultimately 
being incorporated as Iowa's oldest city. In the course of the 
19th century, our population soon became primarily Irish and 
German and remained so until our very recent past. Studies done 
up to the late 20th century indicated that Dubuque's population 
was uniquely homogeneous with very few diverse populations. 
Since the 1990's, this profile has gradually changed, even 
though our population remains predominantly European, even 
western European. But we have welcomed significant numbers of 
new citizens. This has presented our community with both 
challenge and opportunity.
    These changes in our population, while significant, have 
been relatively undramatic. There is not a perception that 
large numbers of undocumented immigrants have come here, though 
the assumption must be made that we do have such persons. 
Several religious and civic groups, notably, the Archdiocesan 
Office for Immigration, a program for Marshallese Islanders by 
several Pentecostal church groups and the Iowa State University 
Extension Diversity Center and the two school districts, have 
managed to keep pace with the challenge. Thanks to these 
efforts, the problem of immigration has not yet become a crisis 
and can be appreciated from a more long-range economic, 
political and philosophical point of view.
    So from this rather lofty stance, it's possible for us to 
posit a number of local realities:
    Like immigrants everywhere, our new Dubuque residents come 
here for a simple reason. They want a better life for 
themselves and their families.
    Second, the employment situation in Dubuque is currently 
very strong with a wide range of varied job opportunities. 
Businesses, however, still feel the need for a growing supply 
of workers with a strong work ethic and a willingness to accept 
a lower rate of pay. In short, we need good workers to keep our 
economic surge going.
    Third, we must assume that some of our new inhabitants have 
illegally crossed our borders. We can tell this by the degree 
of anxiety they express in certain situations and by their 
reluctance to participate in some aspects of community life.
    Even given this barrier, our Hispanic residents are 
becoming part of our community and we find their presence 
enriching.
    We do see areas of potential, even immediate concern. And 
we believe this is best addressed by a comprehensive approach, 
including tighter, enforceable border security; tighter, 
enforceable and enforced employment regulations; assistance for 
localities most heavily impacted by large numbers of both legal 
and illegal immigrants; and a pathway to citizenship which 
rewards those who enter the country legally and penalizes those 
who do not, without destroying their hopes for the future.
    The National League of Cities' policy essentially embraces 
the approach proposed in the McCain-Kennedy Bill and we believe 
it offers the best set of solutions to this problem and the 
guideline for Dubuque.
    We are convinced that when immigrants are admitted through 
a well-regulated system, they strengthen our country by 
creating economic opportunities, increasing America's 
scientific and cultural resources, strengthening our ties with 
other nations, fulfilling humanitarian commitments, and perhaps 
most important, supporting family ties and family values. All 
this is necessary to build strong communities. It is not a 
cliche, but a truism that this is a Nation of immigrants. We 
are all either immigrants ourselves or descendants of them. I 
myself am only a second generation U.S. citizen. All four of my 
grandparents came here from Ireland. They settled in the 
midwest and set about working to build this country. Only one 
of them finished grade school, but they raised fine families 
and built their communities' futures while building their own. 
Of their children, only one achieved a college degree, but all 
achieved business and personal success. Of the grandchildren, 
all have college degrees, most have master's level degrees and 
several have doctorates. They have achieved very high levels of 
professional success and are community builders. We are 
convinced that this new generation of immigrants will be 
equally successful. As we observe them, we see no reason to 
doubt it.
    But as Dubuque citizens, as citizens of the State of Iowa, 
we realize how much we need the population growth represented 
by immigrants who enter the country legally with a firm desire 
to become productive citizens. Our current immigration law 
inadequately addresses the growing number of individuals 
wishing to gain entrance to the United States through a 
temporary work visa program or as legal permanent resident. We 
have also observed that many of these individuals wish to 
remain in the U.S. only temporarily. Ironically, our current 
law makes it more difficult for such workers to move easily 
back and forth across the border, meeting both our need for 
workers and their need for work.
    The issue of illegality cuts both ways. Employers who 
willingly hire unauthorized workers often do so because they 
know they face little likelihood that the Federal Government 
will investigate, fine or criminally prosecute them. Employers 
who want to follow the law find it difficult to do so.
    As I conclude, cities are notably realistic and Dubuque is 
no exception. We realize that we already have some problems and 
accept the fact that absent comprehensive immigration laws, we 
may soon have more. Any law that is passed must address issues 
that I have noted and that others will also note. The NLC 
policy does not call for amnesty, it calls for a rational 
border policy and a pathway to citizenship that does not reward 
illegal entry.
    [The prepared statement of Ms. Michalski follows:]

                Prepared Statement of Anne E. Michalski

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               ATTACHMENT

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Sensenbrenner. Thank you very much, Councilwoman.
    Mr. Cutler.

TESTIMONY OF MICHAEL W. CUTLER, FORMER INSPECTOR, EXAMINER AND 
     SPECIAL AGENT, IMMIGRATION AND NATURALIZATION SERVICE

    Mr. Cutler. Thank you. Thank you, Mr. Chairman. Thank you 
for having me at this hearing. I think it's a critical hearing 
because I believe that we're here to explore what S. 2611, the 
Senate Bill, would do to our country, and I believe personally 
that it would be catastrophic.
    As a former senior special agent of the INS, I have had 
ample opportunity to observe up close and in person the 
failings of the former INS to control the borders of the United 
States and create a system that deters violations of the 
immigration laws of our Nation.
    A nation's primary responsibility is to provide for the 
safety and security of its citizens and yet, for reasons I 
cannot begin to fathom, the Members of the Senate who voted for 
S. 2611 are seemingly oblivious to the lessons that the 
disastrous amnesty of the Immigration Reform and Control Act of 
1986, or IRCA, should have taught us. That piece of legislation 
led to the greatest influx of illegal aliens in the history of 
our Nation.
    Voices. We can't hear you.
    Mr. Cutler. I'm sorry. That piece of legislation led to the 
greatest influx of illegal aliens in the history of our Nation. 
Fraud and a lack of integrity of the immigration system not 
only flooded our Nation with illegal aliens who ran our 
borders, hoping that what had been billed as a one-time amnesty 
would be repeated, but it also enabled a number of terrorists 
and many criminals to enter the United States and then embed 
themselves in our country.
    A notable example of such a terrorist can be found in a 
review of the facts concerning Mahmud Abouhalima, a citizen of 
Egypt who entered the United States on a tourist visa, 
overstayed his authorized period of admission and then applied 
for amnesty under the agricultural worker provisions of IRCA. 
He succeeded in obtaining resident alien status through this 
process. During the 5 year period he drove a cab and had his 
license suspended numerous times for various violations of law 
and he ultimately demonstrated his appreciation for our 
Nation's generosity by participating in the first attack on the 
World Trade Center in 1993 that left six people dead, hundreds 
of people injured and an estimated one-half billion dollars in 
damages inflicted on that iconic, ill-fated complex. America 
had opened his doors to him so that he might participate in the 
American dream and he turned that dream into our worst 
nightmare. The other terrorists who attacked our Nation on 
subsequent attacks, including the attacks of September 11, 
2001, similarly exploited our generosity, seeing in our 
Nation's kindness, weakness, gaming the immigration system to 
enter our country and then hide in plain sight among us.
    As I recall, when IRCA was proposed, one of the selling 
points was that along with the amnesty for what was believed to 
have been a population of some 1.5 million illegal aliens would 
be a new approach to turn off what has been described as the 
magnet that draws the majority of illegal aliens into the 
United States in the first place, the prospect of securing 
employment. In order to accomplish this important goal, IRCA 
imposed penalties against those unscrupulous employers who 
knowingly hired illegal aliens. My former colleagues and I were 
pleased to see that under the employer sanctions of IRCA, the 
unscrupulous employers of illegal aliens would finally be made 
accountable, or so we thought.
    Of course, we now know that the relative handful of special 
agents who were assigned to conduct investigations of employers 
who hired illegal aliens made it unlikely that employers would 
face a significant risk of being caught for violating those 
laws and they would face an even smaller chance of being 
seriously fined. Furthermore, the way that the amnesty 
provisions of the law were enacted simply created a cottage 
industry for fraud document vendors who provided illegal aliens 
with counterfeit or altered identity documents and supporting 
documents to enable the illegal alien population to circumvent 
the immigration laws of the United States. Ultimately, 
approximately 3.5 million illegal aliens emerged from the 
infamous shadows to participate in the amnesty program of 1986.
    To put this in perspective, I have read various estimates 
about the number of illegal aliens who are currently present in 
the United States. These estimates range from a low of 12 
million to a high of 20 million. If, for argument's sake, we 
figure on a number of 15 million illegal aliens or 10 times the 
number that had been estimated prior to the amnesty of 1986, 
and if the same sort of under-counting occurs, and if a 
comparable percentage of aliens succeed in racing into the 
United States and make false claims that they have been here 
for the necessary period of time to be eligible to participate 
in the amnesty program that the Reid-Kennedy provisions would 
reward illegal aliens with, then we might expect some 35 
million illegal aliens will ultimate participate in that insane 
program. Once they become citizens, they would then be eligible 
to file applications to bring their family members to the U.S., 
flooding our Nation with tens of millions of additional new 
lawful immigrants while our Nation's porous borders, visa 
waiver program and extreme lack of resources would enable more 
illegal aliens into the United States as well as the legal 
aliens.
    The utterly inept and incompetent USCIS, which is now 
unable to carry out its most basic missions with even a modicum 
of integrity would undoubtedly disintegrate. The system would 
simply implode, crushed by the burden of its vicious cycle of 
attempting to deal with an ever-increasing spiral of rampant 
fraud, thereby encouraging still more fraudulent applications 
to be filed. Terrorists would not find gaming this system the 
least bit challenging and our Government would have become the 
unwitting ally, providing them with official identity documents 
and false names and then ultimately providing them with the 
keys to the kingdom by conferring resident alien status and 
even United States citizenship upon those who would destroy our 
Nation and slaughter our citizens. I hope that this doomsday 
scenario will not be permitted to play out.
    When I was a boy, my dad used to tell me that there were no 
mistakes in life, only lessons, provided that we learn from 
what goes wrong and make the appropriate changes in the way 
that we do things. However, to repeat the same mistakes was to 
him and to me, simply unforgivable.
    Chairmen Sensenbrenner and Hostettler, I commend your 
leadership in calling these hearings to make sure that these 
concerns are made public and taken into account, especially as 
we approach the anniversary of the attacks of 9/11 and our 
Nation continues to grapple with the immigration crisis.
    America is at historic crossroads at this moment in time. 
Courageous decisions need to be made by our Nation's leaders. 
If our Nation fails to select the proper path, there will be no 
going back. If our Nation decides to provide amnesty to 
millions of undocumented and illegal aliens, I fear that our 
national security will suffer irreparable harm as we aid and 
abet alien terrorists who seek to enter our country and embed 
themselves within it in preparation for the deadly attacks they 
would carry out. The priority must be clear, national security 
must be given the highest consideration and priority where the 
security of our Nation's borders and the integrity of the 
immigration system are concerned.
    Thank you for your time, I look forward to your questions.
    [The prepared statement of Mr. Cutler follows:]

                Prepared Statement of Michael W. Cutler

    Chairmen Sensenbrenner and Hostettler, Ranking Members Conyers and 
Jackson Lee, members of Congress, distinguished members of the panel, 
ladies and gentlemen. It is a distinct honor and privilege to provide 
testimony at this hearing because the topic of the hearing is of truly 
critical significance. We are here to avert what I believe would be a 
catastrophe for the United States. The United States Senate passed a 
bill, S. 2611, that would provide incentives for a massive influx of 
illegal aliens, aided, abetted and induced to violate our nation's 
immigration laws at a time that our nation is confronting the 
continuing threat of terrorism and the increasing involvement of 
violent gangs, comprised predominantly of deportable aliens, in a wide 
variety of violent crimes committed against our nation's citizens. It 
is of critical importance that this hearing and others like it, 
illuminate why S. 2611 would expose our nation to unreasonable 
vulnerabilities especially in the post-9/11 world.
    As a former senior special agent of the INS I had ample 
opportunities to observe, up close and in person, the failings of the 
former INS to control the borders of the United States and create a 
system that deterred violations of the immigration laws of our nation. 
I believe that it is important that our legislative bodies reach out to 
law enforcement professionals when they contemplate enacting 
legislation that would have a significant impact on the criminal 
justice system. Simply enacting legislation will not guarantee that the 
desired goals of the legislation will or can be met. It is therefore 
important for Congress to consider the experience and insight of 
members of the law enforcement agencies that would ultimately enforce 
the laws that are enacted by these legislative bodies. While I will not 
claim to have all of the answers, I believe that my having spent some 
30 years with the former INS in a variety of positions provides me with 
a unique perspective that I am happy to share with you today.
    A nation's primary responsibility is to provide for the safety and 
security of its citizens and yet, for reasons I cannot begin to fathom, 
the members of the Senate who voted for S. 2611 are seemingly oblivious 
to the lessons that the disastrous amnesty of the Immigration Reform 
and Control Act of 1986 (IRCA) should have taught us. That piece of 
legislation lead to the greatest influx of illegal aliens in the 
history of our nation. Fraud and a lack of integrity of the immigration 
system not only flooded our nation with illegal aliens who ran our 
borders, hoping that what had been billed as a ``one time'' amnesty 
would be repeated, but it also enabled a number of terrorists and many 
criminals to enter the United States and then embed themselves in the 
United States.
    A notable example of such a terrorist can be found in a review of 
the facts concerning Mahmud Abouhalima, a citizen of Egypt who entered 
the United States on a tourist visa, overstayed his authorized period 
of admission and then applied for amnesty under the agricultural worker 
provisions of IRCA. He succeeded in obtaining resident alien status 
through this process. During a 5 year period he drove a cab and had his 
license suspended numerous times for violations of law and ultimately 
demonstrated his appreciation for our nation's generosity by 
participating in the first attack on the World Trade Center in 1993 
that left 6 people dead, hundreds of people injured and an estimated 
one half billion dollars in damage inflicted, on that iconic, ill-fated 
complex. America had opened its doors to him so that he might 
participate in the ``American Dream.'' He turned that dream into our 
worst nightmare. The other terrorists who attacked our nation on 
subsequent attacks, including the attacks of September 11, 2001, 
similarly exploited our generosity, seeing in our nation's kindness, 
weakness, gaming the immigration system to enter our country and then, 
hide in plain sight, among us.
    As I recall, when IRCA was proposed, one of the selling points was 
that along with amnesty for what was believed to have been a population 
of some 1.5 million illegal aliens would be a new approach to turn off 
what has been described as the ``magnet'' that draws the majority of 
illegal aliens into the United States in the first place, the prospect 
of securing employment in the United States. In order to accomplish 
this important goal, IRCA imposed penalties against those unscrupulous 
employers who knowingly hired illegal aliens. My former colleagues and 
I were pleased to see that under the employer sanctions of IRCA, the 
unscrupulous employers of illegal aliens would be made accountable, or 
so we thought. We were frustrated that we had seen all too many 
employers hire illegal aliens and treat them horrendously They paid 
them sub-standard wages and created unsafe, indeed hazardous working 
conditions for the illegal aliens they hired, knowing full well that 
these aliens would not complain because they feared being reported to 
the INS. Meanwhile the employer would not face any penalty for his 
outrageous conduct. Finally, it seemed that the employer sanctions 
provisions of IRCA would discourage employers from hiring illegal 
aliens and would also make it less likely they would treat their 
employees as miserably as some of these employers did.
    Of course, we now know that the relative handful of special agents 
who were assigned to conduct investigations of employers who hired 
illegal aliens made it unlikely that employers would face a significant 
risk of being caught violating these laws and that they would face an 
even smaller chance of being seriously fined. Furthermore, the way that 
the amnesty provisions of the law were enacted simply created a cottage 
industry of fraud document vendors who provided illegal aliens with 
counterfeit or altered identity documents and supporting documents to 
enable the illegal alien population to circumvent the immigration laws. 
Ultimately approximately 3.5 million illegal aliens emerged from the 
infamous shadows to participate in the amnesty program of 1986. I have 
never seen an explanation for the reason that more than twice as many 
aliens took advantage of the 1986 amnesty than was initially believed 
would but I believe that two factors came into play. It may well be 
that the number of illegal aliens in the country was underestimated. I 
also believe, however, that a large number of illegal aliens were able 
to gain entry into the United States long after the cutoff point and 
succeeded in making false claims that they had been present in the 
country for the requisite period of time.
    To put this in perspective, I have read various estimates about the 
number of illegal aliens who are currently present in the United 
States. These estimates range from a low of 12 million to a high of 20 
million. If, for argument sake, we figure on a number of 15 million 
illegal aliens, or ten times the number that had been estimated prior 
to the amnesty of 1986, and if the same sort of under counting occurs 
and if a comparable percentage of aliens succeed in racing into the 
United States and making a false claims that they had been here for the 
necessary period of time to be eligible to participate in the amnesty 
program that the Reid-Kennedy provisions would reward illegal aliens 
with, then we might expect some 35 million illegal aliens will 
ultimately participate in this insane program. Once they become 
citizens they would then be eligible to file applications to bring 
their family members to the United States, flooding our nation with 
tens of millions of additional new lawful immigrations while our 
nation's porous borders, visa waiver program and extreme lack of 
resources to enforce the immigration laws from within the interior of 
the United States would allow many millions of illegal aliens to 
continue to enter the United States in violation of law.
    The utterly inept and incompetent USCIS, which is now unable to 
carry out it's most basic missions with even a modicum of integrity 
would undoubtedly disintegrate. The system would simply implode, 
crushed by the burden of its vicious cycle of attempting to deal with 
an ever increasing spiral of rampant fraud thereby encouraging still 
more fraudulent applications to be filed. Terrorists would not find 
gaming this system the least bit challenging and our government will 
have become their unwitting ally, providing them with official identity 
documents in false names and then, ultimately, providing them with the 
keys to the kingdom by conferring resident aliens status and then, 
United States citizenship upon those who would destroy our nation and 
slaughter our citizens.
    I hope that this doomsday scenario will not be permitted to play 
out.
    Insanity has been described as doing the same things the same way 
and expecting a different result. Where our nation's security is 
concerned it would be indeed, insane to ignore the lessons of IRCA.
    When I was a boy my dad used to tell me that there were no mistakes 
in life, only lessons, provided we learn from what goes wrong and make 
the appropriate changes in the way we do things. However, to repeat the 
same mistakes was to him and to me, simply unforgivable.
    Chairmen Sensenbrenner and Hostettler, I commend your leadership in 
calling this hearing to make certain that these concerns are made 
public and are taken into account, especially as we approach the 
anniversary of the fifth anniversary of the attacks of September 11 and 
our nation continues to grapple with the immigration crisis.
    America is at historic crossroads at this moment in time. 
Courageous decisions need to be made by our nation's leaders. If our 
nation fails to select the proper path, there will be no going back. If 
our nation decides to provide amnesty to millions of undocumented and 
illegal aliens, I fear that our national security will suffer 
irreparable harm as we aid and abet alien terrorists who seek to enter 
our country and embed themselves within it in preparation for the 
deadly attacks they would carry out. The priority must be clear, 
national security must be given the highest consideration and priority 
where the security of our nation's borders and the integrity of the 
immigration system are concerned.
    I look forward to your questions.

    Chairman Sensenbrenner. Thank you very much, Mr. Cutler.
    Dr. Fonte.
    [Applause and verbal expressions from the audience.]
    Chairman Sensenbrenner. Now once again, let me remind the 
audience----
    Voice. That is not fair.
    Chairman Sensenbrenner [continuing]. Let me remind the 
audience that expressions of support or opposition to any of 
the testimony, questions or answers are in contravention of the 
House Rules. The Chair is obligated, under the House Rules to 
enforce that. And as I said in the beginning of the hearing, 
there are going to be lots of things said here that you either 
strongly agree with or violently disagree with. And then when 
the next person comes to speak, the coin is going to be turned 
over and people who agreed with the first statement will 
disagree with the second statement. A hearing is not a cheering 
contest or an applause contest or a booing contest. A hearing 
is designed to have the clash of views that are a basis of our 
democracy be expressed.
    Please be respectful of all of the witnesses, regardless of 
what they say.
    Dr. Fonte.

 TESTIMONY OF JOHN FONTE, PH.D., DIRECTOR, CENTER FOR AMERICAN 
                COMMON CULTURE, HUDSON INSTITUTE

    Mr. Fonte. Thank you, Chairman Sensenbrenner, Members of 
the Committee.
    In June, I helped organize an open letter on immigration 
calling for enforcement first. The signers included Newt 
Gingrich, Thomas Sowell, Bill Bennett, Bill Buckley, Robert 
Bork, David Horowitz, Phyllis Schafly, David Keene, Freddie 
Ikle (arms control director under President Reagan), Beverly 
LaHaye (Concerned Women of America), David Frum (former speech 
writer for President Bush), Andy Ramirez (Friends of the Border 
Patrol), Stephen Steinlight (former National Affairs Director 
of the American Jewish Committee) and the National Commander of 
the American Legion speaking to the American Legion, Thomas L. 
Bock.
    The letter declared: ``In 1986, Congress passed 
comprehensive immigration reform including amnesty for three 
million illegal immigrants and interior enforcement (employer 
sanctions). Amnesty came, but enforcement was never 
implemented.''
    ``Let's not make this mistake again.'' We are in the middle 
of a global war on terror. 2006 is not 1986. Today, we need 
proof that enforcement (border and interior) are successful 
before anything else happens. As Ronald Reagan used to say 
``trust, but verify.''
    The letter also states, ``Thank you, Jim Sensenbrenner, 
Peter King and the bipartisan House majority, including 36 
Democrats who supported H.R. 4437.'' In addition, the letter 
thanks the Senators who opposed Reid-Kennedy and declares at 
the end, ``You are right to emphasize that Congress and the 
President must deal with enforcement first and other issues 
later. Stand fast; the American people are overwhelmingly with 
you.''
    I would like to have this submitted to the record with your 
permission.
    Chairman Sensenbrenner. Without objection.
    Mr. Fonte. A Zogby poll revealed that the American people 
prefer the House Bill to Reid-Kennedy two to one (64 percent to 
30 percent).
    Supporters of Reid-Kennedy claim the bill strengthens 
enforcement. This is not true.
    According to Kris Kobach, Attorney General John Ashcroft's 
chief advisor on immigration law, under Reid-Kennedy, local 
police would be restricted from arresting people for civil 
violations of immigration law. He pointed out that five of the 
9/11 hijackers had committed these civil violations. If, for 
example, they were speeding, as four of the terrorists, the 9/
11 terrorists, were, local police would be prevented under 
Reid-Kennedy from checking their immigration status.
    The House Bill is serious about establishing border 
security barriers and, most importantly, has a crucial 
provision on employment verification. On the other hand, the 
Senate Bill does not have the House's strong employer sanctions 
provisions, it limits the scope of border fencing and, 
incredibly, it requires U.S. officials to consult with both the 
Mexican government and affected communities before even 
enacting these security barriers. In effect, a foreign 
government and a vocal minority would be given the power to 
delay the type of security arrangements deemed necessary to 
protect the United States of America.
    While supporters of the Senate Bill claim that 
comprehensive reform involves tough requirements, notably that 
the claim that illegal immigrants must pay all back taxes, as 
Senator Grassley has pointed out, they only have to pay three 
of 5 years, a privilege not--denied to the rest of us.
    Now it should be pointed out also that the Pence-Hutchison 
proposal is also deeply flawed. Senator Sessions has warned 
that it must not become law. In June, Congressman Steve King 
described the original Pence plan as more dangerous than the 
Senate Bill because, in the end, it will attract even more 
illegal immigrants.
    Pence-Hutchison is not serious about enforcement. While the 
guest worker amnesty section of the bill is not supposed to 
begin until border enforcement is secured, the measures used to 
determine when the border has been secured are only 
bureaucratic. For example, how many border patrol agents have 
been deployed. As the National Review put it in an editorial on 
Pence-Hutchison, ``The amnesty would go into effect even if 
there were no evidence that the illegal population was 
shrinking.''
    Now the Reid-Kennedy Bill claims to be a comprehensive 
solution, but it's not really comprehensive. It focuses only on 
skilled labor that ignores the crucial issue of assimilation. 
We're a Nation of immigrants, but actually we are more 
accurately a Nation of assimilated immigrants.
    Let's examine the stories of Andres Bermudez and Manual de 
la Cruz, two men who originally were illegal immigrants from 
Mexico. They received amnesty, they became legal residents. 
They eventually naturalized as United States citizens. They 
took an oath of loyalty to the United States, raising their 
right hand, ``I absolutely and entirely renounce all allegiance 
and fidelity to any foreign prince, potentate, state or 
sovereignty.'' But then they ran for office in Mexico. De la 
Cruz was elected to the Zacatecas State Legislature in 2004 and 
just last month, Bermudez was elected to the Mexican Congress. 
These men are still American citizens, they're serving a 
foreign government and they've taken an oath of loyalty to 
Mexico. If the Reid-Kennedy amnesty were truly comprehensive, 
we would deal with the crucial issue of loyalty to the United 
States of America. We are a Nation, not simply a market.
    If Reid-Kennedy or Pence-Hutchison becomes law, 11 to 12 
million illegal immigrants could become American citizens while 
retaining citizenship and loyalty to their birth nation, thus 
greatly exacerbating dual allegiance and encouraging the 
diminution of loyalty to the United States. Thus, if Reid-
Kennedy or Pence-Hutchison passes, we will not simply be 
repeating the mistakes of 1986, but making the situation worse.
    Let's not make the amnesty mistake again with Reid-Kennedy 
or Pence-Hutchison.
    Thank you.
    [The prepared statement of Dr. Fonte follows:]

                    Prepared Statement of John Fonte

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               ATTACHMENT

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Sensenbrenner. Thank you very much, Dr. Fonte. 
Because Senator Grassley has to leave at 10:30, the Chair is 
going to strictly enforce the 5 minute rule for questions on 
all Members, including himself, so that all of the Members 
during the first round of questioning will have a shot at the 
good Senator. [Laughter.]
    The Chair recognizes himself for 5 minutes.
    I wish Senator Simpson were here but the crux of his 
testimony says ``I believe that there are three principal 
lessons to be learned from IRCA: (1) a more secure employment 
verification system was lacking in IRCA, and subsequent 
administrations frustrated it even . . . as the law was 
implemented, and this remains the critical problem that must be 
fixed if illegal immigration is ever going to be deterred; (2) 
amnesty may yet be justified in some circumstances, but it 
should not take effect until a credible body of policy-makers 
determines that effective enforcement measures are in effect; 
and (3) guestworker programs may be necessary, but Congress 
should never repeat the mistakes of the Special Agricultural 
Worker program when addressing shortages of U.S. pools of 
unskilled labor.''
    And he goes into detail and discusses why.
    I believe that the key to any immigration reform, whether 
it's Reid-Kennedy or the House Bill or Pence-Hutchison or 
anybody else, is enforcing employer sanctions.
    Do each of you agree with that, starting with you, Senator.
    Senator Grassley. Without a doubt, and maybe our bill in 
the Senate isn't quite as strong as the last witness said it 
should be, but we made a real attempt through Social Security 
to make sure it was verifiable.
    Chairman Sensenbrenner. Congresswoman Michalski.
    Ms. Michalski. Thank you for promoting me, sir, I'm Council 
Member. Yes, I believe that it is important to begin with the 
protection of our borders and especially to work with the law 
to make sure that illegal employers are penalized and that 
legal employers are helped to enforce the justifiable law that 
protects American workers and allows the Hispanic and other 
workers to obtain a reasonable compensation and safe workplace.
    Chairman Sensenbrenner. Mr. Cutler.
    Mr. Cutler. Absolutely. You know, I've made the point----
    Chairman Sensenbrenner. My time is running up.
    Mr. Cutler. Okay, I'll just say----
    Chairman Sensenbrenner. Dr. Fonte.
    Mr. Fonte. I absolutely agree.
    Mr. Cutler. There you go.
    Chairman Sensenbrenner. Professor Maril.
    Mr. Maril. Yes.
    Chairman Sensenbrenner. Now it's always cheaper to hire an 
illegal immigrant worker than it is to hire either a citizen or 
a permanent resident with a green card, which is work 
authorization. And the market works, and I think that that has 
been very adequately demonstrated by where the bulk of illegal 
employment is.
    Now what the House Bill does is it sets up a secure 
database in Social Security to verify the accuracy of Social 
Security numbers, meaning the number that is presented by the 
applicant for a job is not either made up or obtained through 
identity theft. And then increases the fines dramatically. In 
the House Bill, the current fine is $100 per illegal worker 
that is caught. That's part of the cost of doing business. 
Fines don't work unless they're high enough to be a--to act as 
a deterrent to illegal activity. So the House Bill increases 
the fine to $5000 on the first pop. I think that this is going 
to be a tremendous step in the right direction.
    The other thing that I want to talk about--and again I've 
got a minute and a half left--is the whole issue of law 
enforcement on the border. The House Bill and the Senate Bill 
both increase the number of Border Patrol officers. The 
appropriators fund them, we authorize them, if we think it's 
necessary. That's where the difference ends. The House Bill 
provides $100 million in assistance to the sheriffs of the 29 
border counties in four States to put more boots on the ground 
and to better equip and train these people. And the House Bill 
also authorizes contracts on a voluntary basis so that the 
local sheriffs can help the Border Patrol, particularly when 
there are violations such as drug trafficking that are 
different from immigration violations.
    Do you think this last feature of voluntary contracting 
would be helpful? And I'd just like a yes or no answer from all 
five of you. Let's start with Mr. Maril.
    Mr. Maril. No, I do not.
    Chairman Sensenbrenner. Dr. Fonte.
    Mr. Fonte. Yes, absolutely.
    Chairman Sensenbrenner. Mr. Cutler.
    Mr. Cutler. It can be helpful.
    Chairman Sensenbrenner. Councilwoman.
    Ms. Michalski. Very risky.
    Chairman Sensenbrenner. Senator.
    Senator Grassley. The answer is yes.
    Chairman Sensenbrenner. Thank you very much.
    The gentlewoman from Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. I think 
we'll have to be sharing twins here this morning.
    Let me remind my good friends from Iowa of a movie called 
``A Field of Dreams'' where Sheila Joe Jackson asked Ray, which 
was Kevin Costner's character, ``Is this heaven?'' And Ray 
replied, ``No, it's Iowa.''
    One of the things that makes Iowa so heavenly, I believe, 
is that it is full of wonderful, sensible people who believe in 
building bridges rather than putting up walls. Iowans 
understand that if America builds bridges to embrace the world, 
growth, prosperity and security will come.
    I want to thank the witnesses for their testimony and the 
Chairman was very right, many of us, or the single one here, 
vigorously disagrees with many of their statements.
    Let me first of all ask unanimous consent, Mr. Chairman, to 
put into the record articles that reflect the people of Iowa's 
view on immigration--church leaders surrounding Dubuque and I'd 
like to call the names of Bishop Gregory Palmer; Bishop Steven 
L. Ullestad of the Iowa Synod of the Evangelical Lutheran 
Church; it looks like Alan Garfield; Sister Judy Callahan and 
Reverend Michael Schwartz, who is with the United Church of 
Christ.
    I'd like to submit those.
    Chairman Sensenbrenner. Without objection, the articles 
will be inserted in the record.
    Ms. Jackson Lee. And I have a couple more. ``Do more than a 
show of immigration sweeps,'' ``Immigration bridges or fence?'' 
I'd like to submit these into the record.
    Chairman Sensenbrenner. Without objection, they'll be 
entered.
    Ms. Jackson Lee. And an article by Johanns, ``Immigration 
issue needs conference solution.'' That is the U.S. Secretary 
of Agriculture.
    Chairman Sensenbrenner. Without objection.
    [The information previously requested to be entered into 
the record was not received by the Committee at the time of the 
printing of this hearing.]
    Ms. Jackson Lee. It means that there are diverse 
perspectives on this question of immigration and I'm saddened 
when witnesses, whoever they might be would equate immigration 
to terrorism. I sit on the Homeland Security Committee and 
Judiciary. We helped write this bill and we had bills coming 
out of the House that would have had a reasonable response to 
many of the issues that the witnesses have said--comprehensive 
security at the border. Professor Maril, a response to the 
needs of Border Patrol. You may be aware of H.R. 4044, Senator 
Kerry offered it as an amendment, giving night goggles, giving 
computers, power boats, everything that the individual Border 
Patrol agents would need. It's interesting to note that time 
after time in the United States House, Republicans have voted 
consistently against funding for border security.
    2003, vote number 301, Republicans voted against 
consideration of an amendment that would have added $300 
million for border security. June 24, 2003, this vote was 
regarding the same amendment as 2003 on a vote of appealing the 
ruling of the Chair, Republicans once again voted against 
giving $300 million more for enhancing the Border Patrol.
    2004, Republicans voted against consideration of an 
amendment that would have added $750 million for border 
security.
    And yet we have witnesses testifying that the 9/11 
incident--why are we continuing to abuse, misuse and, if you 
will, draw on the emotions of the American people, to suggest 
immigration equates to terrorism? Those 9/11 terrorists came in 
on legal visas. Our fault, you're absolutely right. And 
immediately after that, in a bipartisan manner, we submitted 
procedures to try and stop terrorism before it gets to our 
borders. How dare we suggest that economic immigrants coming 
across this country would in any way be equated to such?
    Do we need to stop the flow of illegal immigration? You're 
absolutely right. There's no divide on Democrats and 
Republicans on this issue. But what we are divided on is what 
you're not being told is in this bill, is the felony provision 
that makes Catholic priests, aunts and uncles, grandmothers and 
new born babies felons. It also suggests that you would self-
deport. It means that you would, after this bill is passed, the 
House Bill, show up somewhere and I guess local jurisdictions 
would have to pay for the deportation of 11 to 12 million 
people.
    We're not arguing about the fair system that should be in 
place. But let me tell you what the truth is. Let me tell you 
how the Republicans have failed to enforce any effective border 
security under their jurisdiction. Because the average number 
of new Border Patrol agents added per year have gone down under 
this Administration from the Clinton Administration, 642 added 
per year to 411. The INS fines----
    Chairman Sensenbrenner. The gentlewoman's time has expired.
    Ms. Jackson Lee--fines for immigration enforcement has gone 
down and 76 percent fewer completed immigration----
    Chairman Sensenbrenner. The gentlewoman----
    Ms. Jackson Lee. We need to tell the truth this morning and 
the truth is not being told.
    Chairman Sensenbrenner. The gentlewoman's time has expired.
    Ms. Jackson Lee. I yield back.
    Chairman Sensenbrenner. Let me just observe that there's at 
least one in this room that believes that heaven is a little 
bit north and east of Iowa. [Laughter.]
    Ms. Jackson Lee. I appreciate that, Mr. Chairman.
    Chairman Sensenbrenner. The gentleman----
    Ms. Jackson Lee. I think it's in Texas, I appreciate that.
    Chairman Sensenbrenner [continuing]. From Indiana, Mr. 
Hostettler.
    Mr. Hostettler. I thank the Chairman, and I likewise am 
pleased to be here in Iowa and a part of the truth squad. I 
must remind the audience that in the House of Representatives 
an amendment was considered to reduce the felony provision in 
the underlying bill, in the House Bill, for illegal entry and 
presence in the United States. The reason why that amendment 
was defeated was not because individuals such as the 
Republicans voted to reduce the felony provision to a 
misdemeanor, but because Democrats overwhelmingly, including 
overwhelmingly from the House Judiciary Committee, voted 
against reducing the provision----
    Ms. Jackson Lee. Will the gentleman yield?
    Mr. Hostettler. No, I have 5 minutes.--from a felony 
provision to a misdemeanor.
    Ms. Jackson Lee. It's still a criminal offense.
    Chairman Sensenbrenner. The time belongs to the gentleman 
from Indiana.
    Mr. Hostettler. So the sentiment of the Democrats 
overwhelmingly in the House of Representatives is that the 
provision should not be reduced from a felony to a misdemeanor.
    Now, Senator Grassley, I want to thank you for having us 
here in Iowa. Many of us in the House of Representatives want 
to thank you for your principle stance on the rule of law and 
your vote against granting amnesty to tens of millions of 
illegal aliens.
    If I can ask you to depend upon your recollection of 
history as you lived it and look into your own personal crystal 
ball with regard to the future, as you recall, the makeup of 
the Congress and the White House in 1986 when Simpson-Mazzoli 
was passed, the Immigration Reform and Control Act was passed; 
the majority control of the Senate was in the hands of the 
Republicans.
    Senator Grassley. Yes.
    Mr. Hostettler. The majority control in the House of 
Representatives was the Democrats.
    Senator Grassley. Yes.
    Mr. Hostettler. And the President that supported amnetizing 
the illegal aliens that were currently in the country was a 
Republican, was it not?
    Senator Grassley. Yes.
    Mr. Hostettler. Today, the Senate has passed their 
provision, they have not supplied--the Senate has not supplied 
the necessary communication to the House of Representatives as 
of yet to go to conference on the bill. We expect that at any 
time, but until such time, we cannot actually go to conference, 
as a result of the rules of the proceedings of conference in 
the Congress.
    That notwithstanding, let me ask you to look into your 
crystal--and the reason why there may be significant 
controversy and discussion in conference is because the House 
does not provide any provision whatsoever with regard to 
amnetizing anywhere from 11 to 22 million illegal aliens. So 
there's a significant difference there.
    Let me ask you to look into your crystal ball. And so it is 
Republicans in the House to a great extent who have not, as a 
majority in the Senate did not, subscribe to amnesty, because a 
majority of Republicans in the Senate, including yourself, 
voted against the bill passed by the Senate. And so in the 
House, we--a majority of Republicans--opposed the amnesty.
    Let me ask you to look into your crystal ball. Given what 
you understand about the President whose term expires in 2009 
and the fact probably that the Senate will maintain its 
Republican majority in 2007, a Senate that has already passed 
the amnesty bill, and the House would convert to Democrat 
control, mirroring the circumstances that led us to the 
Immigration Reform and Control Act of 1986, in your opinion, 
looking into your crystal ball, is it likely that, given that 
scenario, we will amnetize 11 to 22 million illegal aliens?
    Senator Grassley. Yes.
    Mr. Hostettler. Thank you. Senator Grassley, I have 
continually stated that the House Bill was an attempt 
legislatively to maintain the commitment of the 1986 act with 
regard to the enforcement provisions. Would you agree that the 
House Bill, while not completely inclusive, is a step in the 
right direction in maintaining those commitments of the 1986 
Bill?
    Senator Grassley. Very definitely, although in some 
respects, at least our intent--and you know, let lawyers argue 
about how words in one bill are different from another, but I 
think on the Senate provision of employer verification, as well 
as the same thing with border security, I think our intent is 
similar with the House, except for the issue of how you treat 
people that maybe have harbored people illegally in the country 
or protected people illegally in the country.
    Mr. Hostettler. Thank you.
    Chairman Sensenbrenner. The gentleman's time has expired.
    The gentleman from Iowa, Mr. King.
    Mr. King. Thank you, Mr. Chairman. And I especially want to 
thank you publicly for agreeing to bring this hearing to Iowa. 
I recognize it's just a short swim across to Wisconsin or 
Illinois, so we have a tri-State area here represented in this 
room. And I had the opportunity to have conversation with many 
of you on the way in, and I appreciate that input as well as 
the testimony of the witnesses, and certainly appreciate our 
senior Senator, Senator Grassley, being here to testify today.
    This is, I think, the most divisive issue I've ever seen in 
my life in the American public. And it's also the most 
complicated. Some of us on this panel have sat in on 
immigration hearings for--sometimes for years, multiple times a 
week. You pick up a lot of information.
    I also wanted, Councilwoman Michalski, to thank you for 
your thoughtful presentation here today and the manner in which 
you presented it.
    The questions that hang back on me, and first I'd like to 
reflect on a statement made by the gentlelady from Texas, how 
dare anyone equate terrorism with immigration or immigrants. 
Well, that obviously blurs the subject a little bit, because 
we're here talking about illegal immigration. I don't know 
people that are not supportive of legal immigration, nor 
supportive of establishing an immigration policy that will 
enhance the economic, social and cultural well-being of the 
United States of America. That should be the case for any 
sovereignty to do that. But we're talking about illegal 
immigration. And so then the question of the terrorist aspect 
of this, our national security--Mr. Cutler testified clearly to 
that.
    We're watching as many as four million people flow across 
our southern border every year. And there's testimony of the 
Border Patrol interdicting perhaps 25 percent to 33 percent of 
those, very low success ratio for that investment of $8 billion 
on our southern border. And in that huge human haystack of 
humanity are terrorists and are criminals, and there's a price 
paid by American society.
    I would direct my question to Mr. Cutler and ask if you 
would want to expound on that subject matter a little bit and 
kind of in response to that issue.
    Mr. Cutler. Sure, thank you, Congressman King.
    You know, the difference between an illegal alien and an 
immigrant is the difference between a burglar and a house 
guest. And we need to know who we're letting in. And the 
problem that we have is that we don't know when people come in. 
You know, in the military, they call that infiltration. And 
it's not just across the border.
    And I want to make a point that's important to consider 
also. Immigration fraud is a crisis. And in fact, Ms. Jackson 
Lee was kind enough to invite me to testify at a hearing back 
in March of 2002 about how Mohamed Atta, the ring leader of the 
9/11 terror attacks and Marwan Al Shehhi, his cohort, were 
given letters of approval to change schools 6 months after 9/
11. By then the whole world knew that they were terrorists and 
they were dead, but the INS was not deterred.
    Now if we have an immigration system that lacks integrity, 
then our Nation is in peril. And it's not just the borders. We 
have to look at it from the perspective of employer sanctions, 
but we also need to make certain that there's integrity to the 
benefits program and to that extent, I believe that immigration 
is a component of national security and the war on terror.
    Mr. King. Thank you, Mr. Cutler.
    Then to Senator Grassley, we know that things came out at 
the Senate hot and heavy during the debate of this immigration 
bill, 2611, and we watched as amendments were being filed--
drafted, dropped, filed, voted on, debated and moved on. It 
seemed like a fairly quick process. And we do it in the House, 
that's why I recognize it that way. Sometimes it looks like an 
auction rather than a deliberative process. And I don't say 
that out of disrespect for the process, but then afterwards we 
begin to read some of the language that's in there, and Robert 
Rector of the Heritage Foundation has produced one of the--
actually one of the lowest credible numbers of perhaps 59 
million who would be legalized by the Senate version of the 
Bill should that pass into law, and that would be over 20 
years. Senator, do you have a judgment as to whether that's a 
high number or a low number or what that number might be?
    Senator Grassley. Well, based on--I don't want to comment 
on that number, but there is a number much larger than 11 or 12 
million. And based on what resulted from 1986 when there were 
roughly a million people here illegally and with all the 
legalization and family reunification, it came out three or 
four times what we had. If you consider the same ratio, then 
you get into numbers that are very big and more accurately 
maybe 35 to 45 million.
    Mr. King. So Rector's number doesn't seem to be incredible?
    Senator Grassley. No.
    Mr. King. Thank you, Senator. I yield back, Mr. Chairman.
    Chairman Sensenbrenner. The gentleman from Texas, Mr. 
Gohmert.
    Mr. Gohmert. Thank you, Mr. Chairman. It's a pleasure to be 
here in Iowa and a pleasure to be here with my friend from 
Iowa, Mr. King. I appreciate the testimony.
    But to get right to some things here, I had a number of 
questions, but some of the things I've read and heard here in 
evidence require me to try to, I believe, help equate the truth 
squad.
    First of all, when I was a district judge for many years, 
the law required in Texas that every action and decision I made 
had to consider the deterrent effect, if any, on what I did. I 
think that is critical here with what we do and the laws we 
pass.
    Senator Grassley, we do appreciate your testimony. I 
appreciated the opportunity previously of being in your office 
as we were basically grilling and interrogating people from 
Immigration on their terrible job that they have been doing in 
processing applications and getting adjudicators security 
clearance, getting things done. And I appreciate your interest. 
That is something we have got to clean up and have it 
functioning better.
    But in view of your concerns about and your experience with 
the Simpson-Mazzoli Bill in 1986, what do you believe would 
happen if people illegally here are given any advantage over 
those trying to get here legally?
    Senator Grassley. Well, I would think that it would be 
demoralizing to people that stand in line for a long period of 
time to see people jump ahead. I think it would denigrate the 
value of legal immigration and in my town meetings around Iowa, 
and Senator King--Congressman King--was at one of those just in 
Harlan a week ago, but even more so in the spring recess period 
of time, I saw the greatest opposition to amnesty come from 
naturalized citizens who have come here and were saying to me 
how can you even think about legalizing people in a short 
period of time who have come here in violation of our laws when 
we did everything correct to become citizens of the United 
States.
    Mr. Gohmert. Thank you, Senator.
    I do need to point out, when it was mentioned by my 
colleague from Texas on the other side of the aisle saying that 
routinely we voted against funding, additional funding for 
Border Patrol and border enforcement, I would point out that I 
believe twice we voted over $100 million and then another 160 
or 170, about $275 million I believe over what the President 
requested. Now some people equate throwing money at a problem 
like we did with Katrina as being compassionate in dealing with 
the issue. It isn't, it must be responsible. And so when we 
have appropriated more money than the Administration has asked 
for, it needs to be used.
    And I would also take issue with the statement that we need 
to do something more befitting the values of our country. I 
would submit to you folks that the reason that this country has 
prospered so has been because we have been a Nation of laws. 
And we have been and have lived the national slogan E Pluribus 
Unum--out of many, one. We have come together, whether it's the 
wonderful attributes of Hispanics, Asians, Africans, 
Europeans--all the different races bring and come together and 
melted as to one. Now people want to talk about we'd be better 
off as a tossed salad. There is more strength in bringing 
metals together in one strong bond, and that's what our values 
have been and it's because we've been a Nation of laws.
    Yes, there's been corruption in this country; there 
continues to be. But this country has done a better job of 
enforcing the laws that we have, whether you're President, 
whether you're a Congressman, policeman, whoever. We do a 
better job of enforcing the law than any nation in the world's 
history and that's why we've prospered greater than any nation 
in the world's history. And that's why immigrants want to come. 
And it concerns me greatly that some would say let's forget 
about our laws, because once we do that, let's forget about 
things being legal and illegal and equate them, once we do 
that, there is no other nation for people to seek to come to to 
improve their lives. And I would hate to see us denigrate this 
Nation as a place.
    And as far as mistakes, I love, Mr. Cutler, your father's 
comment, mistakes--no mistakes in life, just learning 
experiences, except I can tell you, I agree with Frank 
Sinatra--regrets, I've had a few. But we must learn from our 
mistakes. 1986 Simpson-Mazzoli was one. We cannot denigrate 
this Nation as a country of laws.
    Thank you, Mr. Chairman.
    Chairman Sensenbrenner. The gentleman's time has expired 
and the Chair recognizes himself for 5 minutes to begin the 
second round of questions.
    Under the amnesty proposal in the bill that the Senate 
passed, an illegal immigrant in the country, upon meeting 
certain conditions, can become a United States citizen in 11 
years--learning English, paying three out of 5 years of back 
taxes, paying a fine, having a background check and the like. 
However, a Mexican national who applies for an immigrant visa 
with the U.S. Embassy in Mexico City has to wait 16 years in 
order for the visa to get to the top of the pile and be granted 
and then once that person comes, has to wait another 5 years as 
a permanent resident before applying for naturalization. So 
that's a minimum of 21 years.
    Now this means that the Mexican who applies for the 
immigrant visa and seeks to enter the United States legally has 
to wait minimum of 10 years longer than someone who sneaks 
under the fence and enters the United States illegally.
    I just want to have a yes or no answer. Is that fair? 
Senator?
    Senator Grassley. Absolutely not.
    Chairman Sensenbrenner. Councilwoman Michalski?
    Ms. Michalski. No.
    Chairman Sensenbrenner. Mr. Cutler.
    Mr. Cutler. Absolutely not.
    Chairman Sensenbrenner. Mr. Fonte?
    Mr. Fonte. No.
    Chairman Sensenbrenner. Professor Maril.
    Mr. Maril. No, it isn't.
    Chairman Sensenbrenner. Okay. Well, that's the focus of 
this hearing, on how the amnesty works, and the devil is really 
in the details.
    Now one of the things that Senator Simpson mentioned in his 
testimony, and I believe a couple of you in your written 
testimony have also referred to it, is that the amount of 
document fraud in the special agricultural worker provision in 
the Simpson-Mazzoli Act of 1986 was about 75 percent. And once 
somebody got a special agricultural worker visa to enter the 
United States, there was no requirement that they work even an 
hour in the agriculture profession. Once they were in, they 
could go and do anything that they wanted to do, or maybe even 
nothing.
    Under the Senate Bill, the officials who receive the 
documents from the amnesty contained in the Senate Bill are not 
allowed to question the authenticity of the documents that are 
presented to them, meaning if the document is fraudulent on its 
face, the adjudicator can't say so and deny the application on 
that basis. And can be fined and jailed if the adjudicator does 
go beyond the four corners of the pages on that. The person who 
has submitted the fraudulent document is not fined at all. So 
we're fining the person who's supposed represent the interests 
of our country to look into fraud and not fining the person who 
has committed fraud.
    Is that fair? Senator?
    Senator Grassley. No, and you pointed out one of the very 
weaknesses and flaws in the Senate Bill that I think anybody 
that would put that in a bill ought to be embarrassed that that 
would be in the legislation.
    Chairman Sensenbrenner. Councilwoman Michalski?
    Ms. Michalski. That's why we have Conference Committees, is 
to work out the details that may be stronger in one bill than 
in another.
    Chairman Sensenbrenner. Mr. Cutler.
    Mr. Cutler. Not only unfair, but outrageous.
    Chairman Sensenbrenner. Dr. Fonte?
    Mr. Fonte. It was shameful that it was put in.
    Chairman Sensenbrenner. Professor Maril.
    Mr. Maril. No, I think it's a detail that should be 
corrected.
    Chairman Sensenbrenner. Okay, now finally, I've been on the 
border quite a bit, and both local law enforcement and Border 
Patrol agents have said that the changes in the type of flow 
illegally across the border have changed. About 5 years ago, 
most of the people who came across the border were economic 
migrants. Now the coyotes who take money to smuggle people 
across the border are becoming full service criminal 
enterprises and they're requiring many of their customers to 
carry illegal drugs--marijuana, a lot of methamphetamine, a lot 
of cocaine, crack from South America--across the border. And 
the DEA estimates that in major cities, a large amount of the 
illegal drugs sold by gangs are smuggled across the southwest 
border.
    Should we change the laws relative to bringing people 
across the border to throw the book at the coyotes that are 
making money off of poisoning our youth and poisoning citizens, 
by changing the law and making it easier for the Justice 
Department to prosecute these folks and throw them in jail? 
Professor Maril, yes or not?
    Mr. Maril. I think we should, but the coyotes are never 
caught.
    Chairman Sensenbrenner. Dr.Fonte.
    Mr. Fonte. Yes, absolutely.
    Chairman Sensenbrenner. Mr. Cutler.
    Mr. Cutler. Absolutely.
    Chairman Sensenbrenner. Councilwoman Michalski.
    Ms. Michalski. If we made it tougher on coyotes, I think 
that it's the immigrants who would be having demonstrations in 
favor of that. They are victims of the coyotes.
    Chairman Sensenbrenner. I agree with that. Senator 
Grassley.
    Senator Grassley. My answer to your question is yes.
    Chairman Sensenbrenner. Okay, my time has expired. The 
gentlewoman from Texas.
    Ms. Jackson Lee. I think I have to share again, Mr. 
Chairman, thank you.
    Let me continue on the Chairman's last question. None of us 
disagree with that. In fact, I would refer you to legislation 
that I offered, the Alien Smuggling Act, that focused 
specifically on the horrificness of alien smugglers and 
coyotes. Interestingly enough, and to those of you, since this 
is like a town hall meeting, you can see that I'm substantially 
out-numbered and so if I spend time putting information into 
the record, please understand because there's so much overlap 
of, if you will, misconstrued information, that I have to sort 
of try to correct it.
    But the idea of the alien smuggling, as the Council member 
so eloquently stated, these are issues that can be effectively 
resolved and enhanced and strengthened by going to conference. 
Might I offer that I wish again that we were here focusing on 
the reality of what we need to do, but we are having hearings 
specifically in different locations because Republicans are 
sort of traveling around to the districts where they have 
competitive races. Their own Congressman Jim Kolbe said, ``Of 
course, it's not happenstance where these hearings are 
happening. They are very deliberately planned. A lot of 
Republicans are listening to a very shrill part of their base 
who are very loud about this issue, and they believe that this 
translates into votes in the base rather than having a serious 
discussion about immigration reform.''
    With respect to the amnesty which, again, is a misnomer of 
what is in the present bill as it relates to the Senate Bill, 
is that no, those individuals would not be in front of 
individuals who are on the legal line, if you will, they would 
go behind that and there would be substantial criteria utilized 
and vetting before anyone would be allowed to take advantage of 
the system.
    I think it's also important to note that my good friends 
keep talking about legal immigration and undocumented, and 
they're absolutely right, but again, 9/11 was a totally 
different story. I sit on the Subcommittee on Intelligence on 
Homeland Security, and it was a question of intelligence, 
communication, the understanding that individuals with legal 
visas here in the United States have overstayed, that's 
enforcement. It was a question of individuals being trained to 
take off in planes and not land, and no one reporting that to 
the local FBI, because we are not sensitized. So it was a 
question of intelligence, it was not a question of the fact 
that we have immigrants coming to the United States and they're 
all proposed to be terrorists.
    I think the real key has to be the seriousness in which we 
address these questions. God knows as we approach 9/11, none of 
us want to see this tragedy again. And I want to say that we've 
been working together as it relates to terrorism to confront 
this issue.
    And might I correct my good friend from Indiana on this 
question of a misdemeanor. The statement is very clear, you're 
right, Democrats don't believe that civil immigrants, meaning 
those who have come in civilly, on the basis of under the civil 
law, can in any way benefit the United States by criminalizing 
the process. We do believe that we must find a way to ensure 
the security of this border. But when you talk about a 
misdemeanor or a felony, you're talking about clogging up the 
Nation's courts for years and years, deportation, 200,000 buses 
and years and years.
    And I might say to Senator Grassley that my understanding 
is that in the 1986 Bill, some three million achieved amnesty, 
far less than we ever thought. So we don't know the numbers.
    Professor Maril, let me ask you, in your comments you 
certainly gave a very pictorial view of what is happening at 
the border, but do you think it's important that we really 
focus on giving the Border Patrol the professional tools, 
professional development, civil service development, protection 
in the workplace? That would be a sizable improvement in 
helping our border security, and particularly going back to the 
annual increase of border security forces. Does anyone know 
that the Republicans failed to give the 2000 per year that the 
President even asked? And might I ask you that question? Would 
that help our situation at the border?
    Mr. Maril. It would help immensely. And not only the number 
of agents, but all of the other things that you mentioned would 
help immensely them do their job.
    Ms. Jackson Lee. So there are failed policies. And Council 
member, would you please, people believe immigrants are, if you 
will, a dole, a burden on the--if you will, on the economy. 
Everything that you've asked for--pathway to citizenship, 
compensation to communities--is in the Senate Bill. But could I 
ask you, is it not true that immigrants in this community pay 
taxes, engage in the economy by being consumers, pay sales 
taxes and in essence also contribute to your local economy?
    Ms. Michalski. They not only contribute to our local 
economy in all the ways that you have described, but they also 
contribute to our civic economy. They have enriched our 
community immensely. I stand in my window and watch them going 
to church across the street, young families, which we don't 
have as many of in Dubuque as we'd like. Jackson Park is across 
the street, that's become a center of their civic life. We are 
a richer community because of our Hispanic, Bosnian, 
Marshallese, Asian, all of the people who have come to our 
community have made us a better community and a place that 
really more accurately reflects the American vision. We welcome 
them, we want them to come here legally and safely. They have 
family values, the work ethic, all the things we value in Iowa 
and they fit into our economy and into our life very well, and 
we hope that the conference that will result in a good, 
comprehensive bill, will contribute also to our ability to deal 
with the challenges that this inevitably brings to us.
    Chairman Sensenbrenner. The gentlewoman's time has expired.
    The gentleman from Indiana, Mr. Hostettler.
    And Senator, you can leave whenever you want to. 
[Laughter.]
    Senator Grassley. Could I say something before I go?
    Chairman Sensenbrenner. Sure.
    Senator Grassley. First of all, thank you very much for 
coming to Iowa. Secondly, so I'm not accused of appealing to my 
base, I want people to know that one-third of the Democrats in 
this State vote for me. [Laughter.]
    Secondly, I want you to consider that there was an awful 
lot of thoughtfulness that went into the Simpson-Mazzoli, it 
took 5 years to get it passed, but we look back, regardless of 
the thoughtfulness, we still made some mistakes.
    And I think the last point I would make to you is that if 
you don't learn from history--and I cast my vote in making a 
lesson from history--you're subject to repeat the mistakes of 
the past.
    Chairman Sensenbrenner. Thank you very much, Senator.
    The gentleman from Indiana, Mr. Hostettler.
    Mr. Hostettler. Councilwoman Michalski, if I can just 
extend the discussion that you were having with my colleague 
from Texas about the enrichment of Iowa's society with regard 
to the immigrant, and especially as this legislation and 
discussion speaks of illegal immigrants. In your testimony, you 
speak to that enrichment when you say ``We in Dubuque are 
convinced that this new generation of immigrants will be 
equally successful'' as was your family that you note. ``As we 
observe them, we see no reason to doubt it.'' Once again, as 
noted earlier, ``Iowa needs more good productive citizens, 
citizens who desire to contribute to the life of the 
community.'' And you speak about that ``And those who work with 
immigrants in our community share with us the tragedy of 
families where undocumented persons have lived useful, 
productive community-building lives for 10 years or more.''
    Now later on in your testimony comes the dichotomy in that 
``Such a law'' meaning such a law with regard to amnesty or 
legalization, path to citizenship or whatever, ``must also 
protect cities from the unfair burden of becoming the 
uncompensated provider of all the services needed to protect 
both the newcomers and those who may join communities 
nationwide.'' And we've heard testimony to that before in other 
settings, during August, this month, and before, as I serve as 
Chairman. And it's an interesting--I won't say contradiction, 
but at least dichotomy, in that there's tremendous productivity 
and contribution, but there is also this discussion of we need 
a lot of money from Federal coffers to pay for benefits locally 
to cover education, provided health services and the like.
    And so my question is generally productivity and community 
enrichment result in all of those benefits being paid for out 
of those who are productive and who enrich the community. Yet 
Congress is being asked, not just in your testimony but in 
others, to expand the Federal contribution to local communities 
and States in order to cover the costs. And I guess my question 
is, which is it?
    Ms. Michalski. It's both. I'm a locally elected official 
and as a locally elected official, we spend a great deal of our 
time dealing with the issue of unfunded mandates. And we are 
accustomed to being faced constantly with challenges to provide 
services that are very much needed by our citizens that have 
been dictated by the Federal Government but the check does not 
come in the mail along with the mandate.
    And let me use just one example and that is the frequently 
suggested idea----
    Mr. Hostettler. I can't, I appreciate that, but----
    Ms. Michalski. I know, you've got 5 minutes, but I'm the 
only one who is able to speak from this side.
    Ms. Jackson Lee. Let her answer the question, Mr. 
Hostettler.
    Chairman Sensenbrenner. The time belongs to the gentleman 
from Indiana.
    Mr. Hostettler. I know what my question was. My question 
was very simple. You tell us that there is tremendous 
productivity contribution, especially economically. You 
specifically say that, economic contribution. And then you say 
Hoosier taxpayers should send money to Washington, D.C. in 
order to fund programs to benefit those whom you say are being 
extremely productive and economically beneficial. And that's--
and given that, that's just confusing to me.
    Dr. Fonte, if I can expand on that, in your testimony, you 
talk about the fact that individuals, unlike American citizens, 
who are going to receive the amnesty, pay three of 5 years back 
taxes. Do you know of any provision in Federal law to allow 
citizens of the United States to do that in a blanket form?
    Mr. Fonte. I know of no other provision.
    Mr. Hostettler. Once again, so that is different, that is 
an amnesty. There's another amnesty. According to Federal law, 
it is a felony to knowingly provide a fraudulent Social 
Security number in applying for employment. It is a felony 
already. Congress didn't make it a felony in this Bill, it's 
already a felony. Is it your understanding that the Senate 
Bill, the Reid-Kennedy Bill, effectively gives amnesty for 
Social Security fraud?
    Mr. Fonte. Yes, the Reid-Kennedy Bill gives essentially 
special privileges for illegal immigrants.
    Mr. Hostettler. Now Iowan citizens here that would 
knowingly provide a fraudulent Social Security number would be 
arrested and potentially found guilty of a felony. Does that 
sound fair?
    Mr. Fonte. Absolutely not. If you're a citizen, you would 
be arrested; if you're an ilegal immigrant, you wouldn't be.
    Chairman Sensenbrenner. The time of the gentleman has 
expired.
    The gentleman from Iowa, Mr. King.
    Mr. King. Thank you, Mr. Chairman.
    I'd point out something that I think wasn't clearly 
understood from the gentleman from Indiana, the statement of 
not being able to understand why we would have to have a 
Federal subsidy to support a political subdivision if that 
political subdivision had an influx immigrant labor that was an 
economic boon rather than an economic detriment. I think that's 
the equation that needed to be clarified.
    But I would like to ask Councilwoman Michalski, everyone on 
the panel, as I understood their responses, said they support 
enforcing the law. And so I think we have to think about it in 
the component of times when we may not be able or willing to do 
that, but I'd ask you, would you be willing to support and 
endorse deportation when people are in violation of our 
immigration laws?
    Ms. Michalski. Deportation becomes a really difficult issue 
when you're talking of this 12 million----
    Mr. King. Regardless of the logistics though, within your 
own community, people that you know, how hard is that, as a 
Councilwoman in Dubuque, to look some people in the eye that 
are making a contribution to the economy, contribution to the 
society and say the rule of law is more important than your 
life here, we're going to have to send you back where you came 
from. Can you really do that?
    Ms. Michalski. I don't think so.
    Mr. King. I thought that was the case and I just wanted to 
ask that question, because there is a real human element to 
this. And it's difficult for me on this side, and everybody 
knows where I stand, but what we have now is 12 million or more 
people in the United States that are here illegally and almost 
everyone knows a family that's here illegally, they know them 
personally and they respect them, they see the job that they 
do. And it's hard to look people in the eye and say this is the 
law, we have a higher cause, the rule of law. I just brought 
that out for that illustration.
    I'd ask then, Mr. Fonte, the obvious questions that never 
get asked from top to bottom. Is there such a thing as too much 
illegal immigration, or too much legal immigration for that 
matter? How much is too much? What would be some of the 
standards that a rational nation would use when they set a 
rational immigration policy?
    Mr. Fonte. America is the greatest, most successful 
immigration country in the history of the world, for one basic 
reason, immigrants have assimilated to this country 
patriotically, because of patriotic assimilation. So our 
immigration policy should be based on how well people are 
immigrating--how well people are assimilating and assimilating 
patriotically. That means--that just specifically means knowing 
English or passing a test, it means being loyal to the United 
States, it means an emotional attachment to the United States, 
inheriting the story. My father came from Sicily, but he 
considers George Washington and Abraham Lincoln part of his 
ancestry, as immigrants have throughout our history. Theodore 
Roosevelt talked about this. So there's no such thing as an 
immigration policy without an assimilation policy, the two are 
together.
    Mr. King. Let me maybe take this a little bit further. We 
could have a discussion about how much labor is available in 
the United States but I can tell you there are 77.5 million 
non-working Americans. And between the ages of 20 and 65, there 
are over 60 million non-working Americans and between the ages 
of 16 and 19, there are 9.3 million non-working teenagers, not 
even part time. Any one of those categories would provide that 
labor supply to replace those that are in this country and 
working here illegally. So economics is not really the question 
except for individual businesses, but from the broad national 
economic scope. When we do immigration, we import the 
economics, we also import the culture.
    Would there be someone on the panel that would want to 
address a question, first to Mr. Fonte, what components are we 
missing in the United States of America that we should be 
reaching out to other civilizations to bring here to enhance 
this culture in the United States of America?
    Mr. Fonte. Well, for one thing, I think if we're going to 
emphasize immigration, we should emphasize high skills and at 
the current time, we're emphasizing low skill, both in our 
current policy and in the Reid-Kennedy. So I think an emphasis 
on high skills would be beneficial. But immigration policy 
should be based, I think first on national security; second, on 
national cohesion, the assimilation. And then after we've done 
all this and secured our borders, had patriotic assimilation, 
then we could look at the specific economic needs of particular 
industries.
    Mr. King. Mr. Cutler.
    Mr. Cutler. Well, there's one thing I wanted to say. I know 
it's going to go slightly off, but when we let people in, I 
know that Ms. Jackson Lee talked about properly vetting them. 
There's no way we can vet millions of people with roughly 
15,000 employees and if you look at Mike Maxwell's testimony 
about the problems with USCIS, simply saying we're going to do 
it, doesn't mean it's going to happen. And I think that's 
critical. There's often no door we can close on the border, so 
if we did this, there's no way we couldn't prevent more people 
from coming because once people get legal status, they're no 
longer such attractive employees. We saw that also after the 
1986 amnesty. People who had residency were being fired and 
being replaced by the next generation of illegal aliens.
    Mr. King. Thank you, I yield back.
    Mr. Cutler. That's going a little bit off.
    Chairman Sensenbrenner. The gentleman's time has expired.
    The gentleman from Texas, Mr. Gohmert.
    Mr. Gohmert. Thank you, Mr. Chairman.
    Just to touch on a couple of follow-ups. One thing, I 
appreciated Senator Grassley's comment, basically the adage 
those who refuse to learn from history are destined to repeat 
it. There is a follow-up to that that many people don't know 
and that is, those who do learn from history will find new and 
different ways to screw up, but anyway---- [Laughter.]
    That's a whole other thing. But we do need to learn from 
history and learn from our mistakes.
    But I also want to mention, my colleague from Texas 
mentioned she's outnumbered, but I can assure you that's not in 
work output. Nobody works harder than Ms. Jackson Lee from 
Texas in doing her job, but there are I think 17 Democrats on 
the Committee and she's the only one that chose to come. Others 
would have all had 5 minutes apiece if they had come, in each 
round.
    But now with regard to the issue on whether or not we are 
addressing or need to address the issue of people coming in and 
overstaying their bounds. I think it was the Chairman's bill, 
the Real ID Act, wasn't it, Chairman? Wasn't that your bill? 
That did address that, I think back in December and we passed 
it through the House. If we could get it through the Senate, it 
does address that issue, and I was shocked to find out there 
are so many States that just give drivers licenses to illegal 
immigrants. And without interfering in States' rights, the Real 
ID Act said if a State wants to have its citizens use its 
drivers license in interstate commerce, like getting on a 
plane, it has to end when the documents legally end. So if it 
had been in force at the time of 9/11, I think most all of 
those hijackers could not have gotten on the planes, who had 
overstayed their visas, because their drivers license would not 
have been good.
    One other thing that does bring up and that is the need for 
a tamper-proof card that is not easily fraudulently provided. I 
mean good night, if MasterCard and Visa can have cards that you 
can scan and know immediately if they're good or not, we ought 
to be able to provide those to people who want to come here 
legally and give them card. And then the employer scans it and 
we've even had testimony in our Immigration Committee, you 
could have a thumb print on there at the same time and it would 
tell you this is a legal card and this person is supposed to 
have it. And then if the employer chooses to hire somebody 
besides that, then they've committed a crime. And put it on the 
place where it should be, once we have that in place.
    One of the things that I was shocked to find out, I don't 
know how many of y'all are aware of it, I didn't know there was 
a diversity visa lottery that was started under Tip O'Neill 
because he didn't think there were enough I guess Irish that 
were immigrating into this country. So they put the bill in 
motion to award 50,000 visas a year, without regard to whether 
they had a job or family, it was just drawing from a lottery, 
and Hispanics were excluded, they're not allowed to 
participate. And so I thought that was pretty unfair and I 
thought it was great that we have addressed this, and we need 
to address it as a House, get it to the floor and have the 
Senate in that bill. That's where the biggest hold up is.
    But we've got to get the Senate to address that. That is 
just an abdication of our obligations to enforce the law and 
have immigration service do that.
    But one other thing I need to address, and I have the 
benefit, many of y'all don't, having read through the different 
testimony, but Professor Maril, you made a statement that hits 
me to my core in this writing, ``The war on drugs is over, our 
side has lost.'' I would submit to you humbly that we've not 
adequately participated at our borders. We have hamstrung our 
sheriffs, we've not given the Border Patrol what they need. 
We've appropriated the money from our side, it hasn't been used 
to enforce the law. And to just say we've lost the war on 
drugs, to me is like saying we've lost the war on crime because 
it continues. Like Jefferson said, the price of liberty is 
eternal vigilance. We can't give up that fight. When we do, on 
drugs, on crime, we've given up the Nation. And for my 
lifetime, I don't intend to ever do that and say that we've 
lost. I think we can win, we just haven't been participating.
    I've got to ask you, Professor, do you really think that is 
a hopeless cause, that if we put the resources behind this 
issue, that we cannot stop or greatly impede the flow of drugs 
into this country?
    Mr. Maril. I think there's a tremendous effort upon the 
part of the Mexican drug cartels and other criminal 
organizations, I think that we haven't done anything much to 
stop that flow, given the crisis we see in every city right now 
of methamphetamine, which is the new drug. I would like to hope 
that if we put all of our effectiveness into it, we could do 
something, but until we do something with the treatment of 
those that are addicted in the United States, Americans to 
drugs, I think that flow will continue.
    Mr. Gohmert. Thank you. I'm glad to hear you say there's 
still hope.
    Chairman Sensenbrenner. The gentleman's time has expired.
    Before adjourning the hearing, I'd like to make a couple of 
observations. First, I'd like to thank the witnesses for 
attending and the Members of Congress who have been to the five 
hearings that the Judiciary Committee has held on this subject. 
While other Committees have got a piece of the pie on the 
immigration law, the Judiciary Committee, under the House 
Rules, is the Committee of primary referral for any immigration 
related legislation.
    This is one of the most difficult and vexatious issues that 
we face and the reason it is difficult is because of the 
failure of the Simpson-Mazzoli Act that I have referred to and 
Senator Grassley referred to in his testimony. I am committed 
to coming up with a fair and just solution to this problem, but 
learning from the mistakes of Simpson-Mazzoli, that fair and 
just solution, in order to be effective, has got to secure the 
border and enforce employer sanctions first. Because if we do 
not do that, the illegal immigrants who legalize themselves 
under any provision that Congress may pass will have the effect 
of pricing themselves out of the market and there will be a new 
wave of illegal immigrants who will be willing to work for less 
wages in the jobs that the current wave of illegal immigrants 
have for less, and employers will hire them rather than hiring 
people who are legalized either because they're citizens or 
green card holders or through any new provision that Congress 
has to pass.
    And the key to dealing with this in a way that solves the 
problem is to do things in the proper order. Where Simpson-
Mazzoli failed and why we've got the problem we've got today is 
because the amnesty was given and nobody bothered enforcing 
employer sanctions on the bad actors who employed, many of them 
hundreds or even thousands of illegal immigrants and many of 
them off the books, not taking out withholding, paying them in 
cash, not paying the minimum wage, and literally exploiting 
them.
    So I am committed during the brief period of time that the 
Congress has to attempt to work out a compromise with the 
Senate, but a compromise with the Senate is going to mean that 
each side is going to have to give up some strongly held 
viewpoints on that. And I'm afraid that a lot of what has gone 
on this year in terms of the public discourse on immigration on 
both sides of the question has further polarized the public. 
And instead of going toward the middle, we have gone further 
apart. And that's going to make our job as elected 
representatives of the people a lot more difficult in terms of 
reaching something that can get a majority vote in both the 
House and the Senate and the President's signature before this 
Congress goes out of existence with the new election in 
November.
    There have been a few things said, we shouldn't have had 
these hearings this month. I think the hearings have been very 
helpful and I've presided at all five of them and I've learned 
a lot of things about this issue that I didn't know before and 
I think I was pretty much up to speed on it.
    We've heard complaints about the fact that there hasn't 
been a Conference Committee established. Well, there hasn't 
been a Conference Committee established because the Senate 
hasn't sent us the papers. And the reason the Senate didn't 
send us the papers is there about $50 billion of new taxes in 
the Senate bill and the Constitution is pretty plain in saying 
that bills raising revenue have to originate in the House of 
Representatives. The Senate I guess forgot about that.
    So I wish everybody here a very good Labor Day weekend.
    Ms. Jackson Lee. Will the Chairman yield?
    Chairman Sensenbrenner. No, I won't. I'm making a 
concluding statement.
    I wish everybody here a very good Labor Day weekend----
    Ms. Jackson Lee. I hope we can have this kind of bipartisan 
spirit when we get back and ask the Senate to have a conference 
and I'd like to sign a letter with you for that very purpose so 
we can get to work.
    Chairman Sensenbrenner. Well, if the Senate sends the bill 
over, then the procedure can proceed.
    Ms. Jackson Lee. Well, let's encourage them by writing a 
letter.
    Chairman Sensenbrenner. Well, we can encourage them 
verbally here and I hope the news media will pick up on that 
because----
    Ms. Jackson Lee. Congresswoman Jackson Lee and Mr. 
Sensenbrenner, Chairman Sensenbrenner, jointly encourage the 
Senate to send it over so we can have bipartisan comprehensive 
immigration reform.
    [Applause.]
    Chairman Sensenbrenner. Okay, well, my other three 
colleagues encourage the Senate to do that.
    So thank you again very much for coming, and without 
objection, the Committee is adjourned.
    [Whereupon, at 10:50 a.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

   Closing Prepared Statement of the Honorable Sheila Jackson Lee, a 
    Representative in Congress from the State of Texas, and Member, 
                       Committee on the Judiciary

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
